<html>
<title> - HURRICANE KATRINA IN NEW ORLEANS: A FLOODED CITY, A CHAOTIC RESPONSE</title>
<body><pre>[Senate Hearing 109-482]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-482
 
  HURRICANE KATRINA IN NEW ORLEANS: A FLOODED CITY, A CHAOTIC RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                            OCTOBER 20, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
24-442                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
              Laurie R. Rubenstein, Minority Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Warner...............................................    19
    Senator Levin................................................    21
    Senator Dayton...............................................    25
    Senator Akaka................................................    29
    Senator Pryor................................................    33
    Senator Lautenberg...........................................    38
    Senator Carper...............................................    41

                                WITNESS
                       Thursday, October 20, 2005

Marty J. Bahamonde, Director, External Affairs, Region One, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security:
    Testimony....................................................     4
    Prepared statement...........................................    51
    Post-hearing questions and responses.........................    56

                                Appendix

Exhibit No. 1....................................................    60
Exhibit No. 2....................................................    61
Exhibit No. 3....................................................    62
Exhibit No. 4....................................................    63
Exhibit No. 5....................................................    64
Exhibit No. 6....................................................    65
Exhibit No. 14...................................................    66
Exhibit No. 22...................................................    67
Exhibit (Senator Lieberman)......................................    68


  HURRICANE KATRINA IN NEW ORLEANS: A FLOODED CITY, A CHAOTIC RESPONSE

                              ----------                              


                       THURSDAY, OCTOBER 20, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, Levin, Akaka, 
Carper, Dayton, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today we will hear from the first FEMA employee who was on 
the ground in New Orleans immediately before, during, and after 
Hurricane Katrina. Marty Bahamonde is a career employee at FEMA 
who has responded to numerous natural disasters, including 
hurricanes in Florida and the massive earthquake in Iran in 
2003. Senator Lieberman and I met Mr. Bahamonde during our tour 
of the Gulf Coast States last month. At that time he gave us a 
sobering assessment of the response to Katrina at all levels of 
government.
    Contrary to former FEMA Director Michael Brown's testimony 
before the House Select Committee, Mr. Bahamonde told us that 
he was the only FEMA official in the area before and during the 
hurricane.
    On Friday, August 26, FEMA headquarters asked Mr. Bahamonde 
to position himself near ground zero of the looming storm. He 
arrived in New Orleans late Saturday night, and on Sunday 
morning he made his way to the city's Emergency Operations 
Center (EOC), which happened to be across the street from the 
Superdome. He then began providing updates to FEMA officials in 
Washington about the situation in New Orleans. He made phone 
calls, wrote E-mails, and sent photographs.
    Sunday noon, recognizing that the crowds at the Superdome 
were larger than the people at the EOC had anticipated, he 
notified FEMA officials in Washington of the developing 
problem. On Monday, he rode out the storm at the EOC and at a 
parking garage where he had a good view of the downtown and the 
Superdome. He provided on-the-scene updates about the 
catastrophic devastation the city was suffering. He was at the 
EOC at 11 a.m. on Monday when the people of the center were 
first notified that one of the levees was damaged.
    Over and over, he alerted top FEMA officials that the 
situation was dire and that it was growing worse by the hour. 
He also briefed city officials on what he learned. Yet, 
inexplicably, his urgent reports did not appear to prompt an 
urgent response.
    Following the storm, the already grim situation at the 
Superdome became a nightmare. The Superdome uncontrollably 
became a mass shelter for tens of thousands where providing 
such basics as sanitation became impossible and food and water 
were a constant struggle.
    At 4 a.m. Tuesday, when the flood waters reached the 
Superdome, the logistical problems there grew exponentially. As 
Mr. Bahamonde reported in calls and briefings on Monday, 
Tuesday, and Wednesday, the crisis was exploding. In an E-mail 
to Director Brown on Wednesday, August 31, he described the 
situation as ``past critical'' and said that the Superdome was 
out of food and running out of water.
    Within FEMA itself, there was a failure to coordinate 
effectively. Mr. Bahamonde tried desperately to fill the void 
created by poor planning and a sluggish response. His accounts 
from the scene, some of which are preserved in E-mail messages, 
describe heroic efforts of FEMA employees deployed to the 
Superdome after the hurricane. But his E-mails also describe a 
complete disconnect between senior officials and the reality of 
the situation on the ground. Mr. Bahamonde wrote a poignant 
message on Saturday, September 3, in which he saluted the work 
of many FEMA employees, but also stated, ``The leadership from 
top down in our agency is unprepared and out of touch.''
    Mr. Bahamonde should be commended for his service at FEMA, 
and the information that he is providing this Committee will 
help us probe and better understand many troubling questions, 
such as how exactly did local, State, and Federal Governments 
react during the 16 hours between the report of the break in 
the levee and the time that the flood waters reached the 
Superdome.
    As the Committee's investigation proceeds, we will examine 
further why critical information provided by Mr. Bahamonde was 
either discounted, misunderstood, or simply not acted upon. For 
now, I look forward with great interest to hearing his 
testimony.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman.
    Our witness today, Marty Bahamonde, was the first and, for 
too long, just about the only FEMA employee on the ground 
during Hurricane Katrina in New Orleans. He arrived before the 
storm hit, rode it out in the city's Emergency Operations 
Center, and ended up being one of the very small group of FEMA 
workers in New Orleans for a full 3 days after the storm. 
During that time, Mr. Bahamonde offered invaluable firsthand 
information to his FEMA superiors and was of great help to the 
thousands of people trapped in inhumane conditions at the 
Superdome.
    I consider Marty Bahamonde's actions in New Orleans to be 
heroic, but the jolting fact is that he was an accidental hero. 
He is not a member of the FEMA Emergency Response Teams or FEMA 
Disaster Medical Assistance Teams or Search and Rescue Teams. 
Marty Bahamonde is a FEMA public affairs officer who was sent 
to New Orleans to advance the expected trip of then-FEMA 
Director Michael Brown to the city and to provide information 
before Mr. Brown's arrival to him about what was actually 
happening in New Orleans.
    Mr. Bahamonde's story is powerful and it is moving, and I 
will leave it to him to tell it. But his story is also deeply 
troubling--in fact, ultimately infuriating, and raises very 
serious questions which this Committee's investigation must 
answer.
    For instance, why after the National Weather Service so 
clearly predicted on Friday, August 26, and, in fact, before 
that Katrina would be a hurricane of Category 4 or 5, the big 
one long feared and likely to literally drown New Orleans, why 
after all those warnings would FEMA manage to get Marty 
Bahamonde, a public affairs officer, into New Orleans the next 
day, Saturday, August 27, but took until Tuesday, August 30, in 
the morning to send a single Disaster Medical Assistance Team 
and until Tuesday afternoon for a small four-person FEMA 
Emergency Response Team to arrive?
    So you have got all these warnings of the storm coming. 
FEMA dispatches Mr. Bahamonde there on a previously mentioned 
assignment on Saturday. But the real help does not arrive until 
Tuesday after the Superdome is in humanitarian crisis and most 
of New Orleans is under water. That is an unbelievable and 
unacceptable turn of events.
    In light of the fact that Mr. Bahamonde began sending 
reports to his superiors on Sunday, August 28, the day before 
landfall, of swelling crowds and significant humanitarian needs 
at the Superdome, why did FEMA send so few medical assistance 
and emergency response personnel to the scene?
    In Mr. Bahamonde's testimony this morning, we are going to 
hear that on Monday, August 29, the day Katrina did make 
landfall, he reported to FEMA, first in late morning E-mails, 
then later in the day in phone conversations including one 
directly with Michael Brown, that some of the levees around New 
Orleans had broken and that, in his own words, 80 percent of 
New Orleans was under water. Why then have Secretary Chertoff 
as recently as yesterday, before a House committee, and 
Secretary Rumsfeld and General Myers said that the levees were 
not breached until Tuesday, when Marty Bahamonde was telling 
everybody on Monday that they had already been breached, or at 
least Secretary Rumsfeld, Secretary Chertoff, and General Myers 
indicating that they did not learn of the levees failing until 
Tuesday?
    We are going to hear this morning how Mr. Bahamonde told 
everyone he could up to Michael Brown that the levees had 
broken early Monday morning and that New Orleans was literally 
drowning. And yet two of our high Cabinet officials say they 
did not know that until Tuesday.
    This disconnect between what Marty Bahamonde will tell us 
he saw and told his superiors on Monday morning and what 
Secretaries Chertoff and Rumsfeld have said they did not know 
until Tuesday is beyond disturbing. It is shocking. Our 
investigation must find out what happened to Mr. Bahamonde's 
reports from New Orleans. Who received them in the 
administration? What did they do with them? Do the answers to 
those questions help explain the excruciatingly slow response 
of the Department of Homeland Security, of FEMA, even of the 
Department of Defense, to Hurricane Katrina and the human 
suffering it left in its wake? Those are critical questions our 
investigation must answer.
    The testimony we will soon hear from Mr. Bahamonde will 
leave us better informed, much better informed, but I believe 
also much more troubled by how the Federal Government responded 
to this hurricane.
    Mr. Bahamonde, I thank you for your dedicated work before, 
during, and after Hurricane Katrina hit land and for your 
important testimony this morning. And I promise you that the 
Members of this Committee, will do everything we can to make 
sure that nothing like the chaos and suffering you witnessed 
with your own eyes and tried as hard as you humanly could to 
stop in New Orleans will ever happen in America again.
    Thank you.
    Chairman Collins. Thank you, Senator.
    Mr. Bahamonde, I know that this has been an exhausting and 
difficult past 2 months for you, and I want to thank you 
sincerely on behalf of all the Members of this Committee, and 
both past and future victims of natural disasters for your 
willingness to come forward. Our goal is to identify what went 
wrong so that we can improve the system and ensure that 
mistakes are not repeated.
    So I just want to publicly thank you so much for coming 
forward, and I would like to ask you to proceed with your 
testimony.

 TESTIMONY OF MARTY J. BAHAMONDE, DIRECTOR, EXTERNAL AFFAIRS, 
     REGION ONE, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bahamonde. Thank you, Senator. Good morning, everyone. 
I appreciate the opportunity to appear before you today.
    As you have already mentioned, I work for the Federal 
Emergency Management Agency (FEMA) as a public affairs officer 
for FEMA's Boston office, and previous to that worked in FEMA's 
Headquarters here in Washington, DC. I worked in New Orleans 
prior to and immediately following Hurricane Katrina and have 
spent the past 6 weeks working at the Joint Field Office in 
Baton Rouge. As you mentioned, I was the only FEMA employee 
deployed to New Orleans prior to the storm. I am here today to 
tell you what I experienced during the 5 days before and after 
Hurricane Katrina in New Orleans and specifically at the 
Superdome.
    I have worked for FEMA for 12 years and have been a full-
time employee since 2002. I have spent most of that time in the 
field, not behind a desk. I have responded to numerous 
hurricanes, earthquakes, floods, tornados, and fires. At the 
personal request of Under Secretary Brown, I deployed to Bam, 
Iran, in 2003 in support of the medical team that worked 
miracles in that city that was totally destroyed and resulted 
in more than 30,000 deaths. I have seen and lived through the 
worst that Mother Nature can provide, and I saw it this year in 
New Orleans and the Superdome.
    Let me briefly explain why I was there. Since 2003, I have 
often been tasked by Under Secretary Brown and his staff to do 
advance work in preparation for or responding to large natural 
disasters. My assignments have included Hurricane Isabel in 
2003, Hurricane Charley in 2004, and Hurricane Dennis this past 
June, and others. My responsibilities varied, but also included 
providing accurate, timely, and important information to FEMA's 
front office and Under Secretary Brown himself. On August 26, I 
was tasked by FEMA's front office to work advance wherever 
Hurricane Katrina was going to hit, which on Saturday appeared 
to be New Orleans.
    I arrived in New Orleans Saturday night, August 27, and 
through the generosity of the New Orleans Emergency Operations 
Center (EOC), I was able to work in their office, and they 
provided me shelter during the hurricane. As you have already 
mentioned, the city EOC is located in City Hall, almost 
directly across from the Superdome.
    On Sunday, August 28, the day before the hurricane hit, I 
met with the city staff at the EOC; I got to know the people in 
their roles at the EOC; and I developed my own plans for my own 
advance work, which included coordinating with the Coast Guard 
to arrange a flyover after the hurricane had passed. On Sunday, 
Katrina intensified to a Category 5 storm, with estimated winds 
of 175 miles per hour. I sensed a great deal of worry among 
everyone at the EOC, and, frankly, I was worried, too. My 
contact at FEMA Headquarters told me to leave New Orleans 
because it would be too dangerous. But like the thousands of 
other people left in New Orleans, the traffic jams leaving the 
city that morning prevented me from leaving as well.
    The Superdome had been designed as a special needs shelter, 
but on Sunday, as thousands of residents were unable to 
evacuate, the Superdome became a shelter of last resort for 
anyone left in the city. By noon, thousands began arriving, and 
by midday, lines wrapped around the building. It was also at 
that time that I realized that the size of the crowd was 
becoming a big concern at the EOC. Terry Ebbert, the city's 
Homeland Security Director, made an announcement in the EOC 
that struck me. He asked the maintenance staff to gather up all 
of the toilet paper in City Hall and any other commodities they 
could find and immediately take them over to the Superdome. I 
specifically noted this because it told me that supplies at the 
Dome were going to be and were already a serious issue.
    I was between the Superdome and the EOC throughout the day 
on Sunday. I took pictures of the crowds and sent them back to 
FEMA Headquarters, which were posted online. On Sunday evening, 
I was at the Superdome to do media interviews, and afterwards I 
met with the National Guard inside the Superdome to discuss a 
wide range of things, including the expected arrival of a FEMA 
Disaster Medical Assistance Team from Houston. The National 
Guard also told me at that time that they expected 360,000 MREs 
and 15 trucks of water to arrive later that night. But as the 
storm intensified outside, a series of critical events began to 
unfold. Instead of 360,000 MREs, only 40,000 arrived. Instead 
of 15 trucks of water, only 5 arrived. And the medical team did 
not arrive either.
    Later that night, after most of the 12,000 evacuees had 
entered the Superdome, I returned to the EOC around midnight to 
ride out the storm. By early Monday morning, with the storm 
upon us, reports from throughout the city were moderately 
optimistic: Some low-level flooding, no levee breaks, and 
limited wind damage. But by 8 a.m., the nearest point of eye 
passage, the situation worsened. I could clearly see and 
reported back to FEMA Headquarters that morning that the Hyatt 
Hotel and many other tall buildings in downtown had suffered 
incredible damage, and I could see the roof peeling off the 
Superdome. I received numerous calls from FEMA Headquarters 
seeking confirmation of the situation on the ground.
    At approximately 11 a.m., the worst possible news came into 
the EOC. I stood there and listened to the first report of the 
levee break at the 17th Street Canal. I do not know who made 
the report, but they were very specific about the location of 
the break and the size. And then they added it was ``very 
bad.'' I immediately called FEMA's front office to relay the 
news. Their reaction was shock and disbelief.
    As I passed on minute-by-minute information, I was always 
under the assumption that it would then be passed to Under 
Secretary Brown and others. I do not know if this ever 
happened. I also contacted FEMA Public Affairs, and I do know 
that an E-mail was sent to staff who was with Under Secretary 
Brown in Baton Rouge mentioning the levee failure and other 
critical information, including the mayor's concern at that 
time that an estimated 30,000 tourists were still in town 
occupying hotel rooms. I continued to provide regular updates 
to FEMA Headquarters throughout the day as the situation 
unfolded.
    Later that afternoon, at approximately 5 p.m., I rushed 
over to the Superdome because I had been notified that a Coast 
Guard helicopter was able to take me for a short flyover so 
that I could assess the situation in the city and plan for 
Under Secretary Brown's visit the next day. My initial flyover 
lasted only 10 minutes, but even in that short amount of time, 
I was able to see that approximately 80 percent of the city was 
under water, and I was able to visually confirm the 17th Street 
Canal levee break. I was struck at that moment by how accurate 
the 11 o'clock call about the levee was.
    About 15 minutes later, I went back up on a second Coast 
Guard helicopter for approximately 45 minutes, and during this 
flight I was able to get a true understanding of the impact of 
Katrina on New Orleans and the surrounding area.
    Upon landing, at approximately 7 o'clock, I immediately 
made three telephone calls to explain the situation. The first 
was to Under Secretary Brown directly. The second was to FEMA's 
front office. And the third was to FEMA Public Affairs. That 
third call was to set up a conference call with FEMA Operations 
in Headquarters, the Emergency Response Team-National team that 
was based in Baton Rouge, the Regional Response Coordination 
Center in Denton, Texas, and with FEMA's front office so that I 
could make as many people aware of the situation that faced 
FEMA and the City of New Orleans.
    Approximately 5 minutes later, I received a call from FEMA 
Public Affairs asking me how sure I was of what I saw because 
there was some pushback on the need for a conference call. And 
I stated I had never been so sure of anything in my life.
    In each report and on the eventual conference call, I 
explained what I saw and then provided my analysis of what I 
believed to be the most critical issues that we were facing at 
that moment: Ground transportation into the city was virtually 
non-existent because of the massive, widespread flooding. Any 
ground transportation must come from the west of the city 
because the I-10 bridge to Slidell on the east side of the city 
was completely destroyed and there was no access from the north 
because of all the flooded roads and highways.
    I also stated that the situation would only worsen 
throughout the night and into the next day or so because of the 
massive amounts of water being deposited into the city via the 
levee break. I described the levee break as being really bad.
    Search and rescue missions were critical as thousands of 
people stood on roofs or balconies in flooded neighborhoods. It 
was getting dark and the city was without power.
    Supplying commodities would be an extreme challenge as more 
and more people were headed to the Superdome to escape the 
flood waters, and food and water supplies were already very 
short at the Superdome. I told them that the Superdome 
population at that time was now almost 20,000.
    Medical care at the Superdome was critical because the 
staff there had run out of oxygen for special needs patients, 
and more and more people were in need of medical attention.
    Housing an entire city worth of people would be a major 
issue as approximately 80 percent of the city was under water 
to varying degrees, and many areas were completely destroyed. 
And I feared that would increase to 90 or 100 percent with the 
levee break.
    Environmental issues would be a major problem as I reported 
that an oil tanker had run aground and there was leaking fuel 
in the river.
    I believed at the time, and I still do today, that I was 
confirming and explaining the worst-case scenario that everyone 
had always talked about regarding the City of New Orleans.
    I then had a meeting with New Orleans Mayor Nagin and his 
staff of approximately 25 people, and I told them of the 
situation so that they would know what they faced in the hours 
and days ahead. I cannot say strongly enough how it was a very 
emotional meeting for everyone. I could tell they were 
devastated. Following that meeting, Terry Ebbert pulled me 
aside and said, ``Marty, you have done this before. What do we 
need to do now?'' I told him that he needed to make a list of 
the city's priorities, actions, and commodities so that they 
could move forward with an organized plan. I also told him that 
they needed to let the State know so that FEMA could be tasked 
to help. He told me, ``Consider it done.''
    On Tuesday, August 30, I woke up early to discover that 
water was rising around the Superdome and that by 6 a.m., 2 to 
3 feet of water was in the streets around City Hall and the 
Superdome, and it was continuing to rise by the minute. I 
immediately called Bill Lokey, the Federal Coordinating Officer 
in Baton Rouge, and I told him of the rising waters and once 
again tried to express the seriousness of the situation as I 
saw it. He thanked me, and he told me he would have an 
operational team deployed to the Superdome later that day to 
relieve me.
    About an hour later, I was informed that Under Secretary 
Brown, Governor Blanco, Senators Landrieu and Vitter, and 
others were planning on flying to the Superdome later that 
morning. At approximately 8 a.m., I went to find Mayor Nagin, 
who was at the Hyatt Hotel, to inform him of the visit, and I 
asked him to meet with the group. So I put on tennis shoes and 
a pair of shorts, and I walked through what was now waist-deep 
water over to the Hyatt and told the mayor of the visit. I then 
walked through the water again to get to the Superdome. I went 
to the Superdome early for fear that if I waited much longer, I 
would have to swim.
    At the Superdome I spoke with the National Guard to get the 
latest conditions, and it was obvious that the Superdome 
conditions were in rapid decline and there was a critical need 
for food and water. The smell emanating from the Dome was 
already beyond description. I communicated all of this to Under 
Secretary Brown when he arrived later that morning. I told him 
that the Superdome conditions were deplorable and that we 
desperately needed food and water.
    During the subsequent meeting with the mayor and the 
incoming group, Mayor Nagin pulled out his list of priorities 
and proceeded to tell everyone what he needed for his city and 
the residents.
    By early Tuesday morning a FEMA medical team arrived at the 
Superdome, and by early afternoon a four-member Emergency 
Response Team-Advance (ERT-A) arrived. For the next 3 days, I 
worked and lived at the Superdome with the ERT-A team and with 
the FEMA medical team. Each day it was a battle to find enough 
food and water to get to the Superdome. It was a struggle meal 
to meal because, as one was served, it was clear to everyone 
that there was not enough food or water for the next meal. But 
I can say because of some truly heroic efforts from FEMA staff, 
the Coast Guard, and the National Guard, enough food was always 
found and brought to the Superdome, even at the last moment, so 
that at least two meals were served to everyone each day.
    While we battled food and water issues, rescue missions 
continued, more and more people arrived at the Superdome, and 
the medical conditions of many at the Superdome were in rapid 
decline; many people were near death. Working in absolutely 
deplorable conditions, the New Mexico Disaster Medical 
Assistance Team saved lives. They worked with helicopter 
Medivacs to evacuate the most critically ill.
    I would like to say that what has been lost in all of the 
discussions and criticisms of what did or did not happen in New 
Orleans is that real heroes existed there, and the New Mexico 
medical team did truly amazing things to save lives and make a 
difference, as did FEMA's urban search and rescue teams. They 
worked 24 hours a day to treat patients, and it is accurate to 
say that without their work, many more people would have 
certainly died. I am honored that I can call them coworkers 
because they are truly the best of what FEMA has to offer.
    It is well known what happened over the next several days, 
most of it real, some of it hyped and exaggerated by the media, 
but all of it tragic. I was and still am today most haunted by 
what the Superdome became. It was a shelter of last resort that 
cascaded into a cesspool of human waste and filth. Imagine no 
toilet facilities for 25,000 confined people for 5 days. Women 
and children were forced to live outside in 95-degree heat 
because of the horrid smell and conditions inside. Hallways and 
corridors were used as toilets, trash was everywhere, and 
amongst it all, children--thousands of them. It was sad, it was 
inhumane, it was heart-breaking, and it was so wrong.
    By Thursday, plans to evacuate the Superdome were underway. 
Buses began taking people from the Dome, but there were 
critical missions to still carry out. But early Thursday, the 
National Guard approached the FEMA staff and told us that there 
was intelligence that a riot was being planned for noon and 
that they did not want to be responsible for our safety, so 
they recommended that we leave. Phil Parr, who was the senior 
FEMA official on the ground at that time, made the decision to 
evacuate all FEMA assets from the Dome, including the medical 
team. I strongly voiced my concerns about abandoning the 
mission and the critical need to continue with medical care and 
the coordination of food and water into the Dome. I pointed out 
at that time that during the overnight hours, approximately 150 
heavily armed forces arrived at the Superdome by helicopter, 
raising the security level. I called Mike Brown directly to 
tell him that we were leaving. I contacted FEMA's front office 
that we were leaving. I think I was hoping that somebody would 
make us stay. Within an hour, all FEMA personnel were ordered 
onto trucks and driven out of the Superdome. Our leaving at 
that moment meant that FEMA had lost all visibility of the 
situation and operational control at the Superdome. I do not 
believe that it was the right decision for us to leave.
    We were taken to Baton Rouge and the State EOC where I 
immediately found Under Secretary Brown and again voiced my 
strong objections about pulling out. He looked at me and he 
said he was glad I was safe, but I was to ``get my ass back 
there.'' Within hours, another medical team was dispatched to 
return to the Superdome, and the next day an operational team 
was sent back. I never went back. I stayed in Baton Rouge and 
began to work in public affairs.
    My purpose before you today is to help you to understand 
what happened in New Orleans and when it happened, as I know it 
from my own perspective. I hope that what you learn from me and 
the many others that will come later in this Committee is a 
better understanding of emergency management and response. From 
this I hope that we are able to effect change so that no other 
child, no other senior citizen, no other special needs patient, 
no other parent, and no other community in this country will 
ever have to experience the horrors and tragedy that happened 
in New Orleans and the entire Gulf Coast that week.
    I will now answer any questions that you may have.
    Chairman Collins. Thank you very much, Mr. Bahamonde. Your 
testimony is so eloquent and moving, and even more important, 
it is a firsthand account. You are an eyewitness to what 
happened, and that is why your testimony is so important to 
this Committee.
    You stated this morning that it was a struggle meal to meal 
to find enough food for those who were in the Superdome, and it 
was only due to the heroic efforts of a lot of FEMA, Coast 
Guard, and other employees that there was able to be sufficient 
food for those in the Superdome.
    Former FEMA Director Michael Brown stated in his House 
testimony that you communicated to him that there was ``plenty 
of food'' in the Superdome but that later in the week, by 
Tuesday or Wednesday, they did need additional supplies.
    Now, your E-mail to Mr. Brown on Wednesday very clearly 
states, ``We are out of food and running out of water at the 
Dome.''
    At any time before this, did you communicate to Michael 
Brown that there was ``plenty of food'' in the Superdome?
    Mr. Bahamonde. I never communicated that to Under Secretary 
Brown or anyone because I knew that was not the case. As I 
reported that on Sunday and subsequent E-mails went out, I 
think that point was clearly made.
    Chairman Collins. And, indeed, when you spoke to Mr. Brown 
by telephone on Monday night and again when you met with him on 
Tuesday morning, didn't you express at that time that there was 
a critical need for food and water at the Superdome?
    Mr. Bahamonde. I feel I got the message to him as strongly 
as I could because I knew on Tuesday when he arrived that there 
was not any food to feed the people Tuesday evening. So I 
couldn't have been any more clear to him that food and water 
was a desperate situation at the Superdome.
    Chairman Collins. I would now like to turn to the collapse 
of the levees and the report that you received--that you 
overheard, actually, at 11 a.m. the day of the storm on Monday 
in the City of New Orleans Emergency Operations Center.
    First, was the transmission clear that this was a break in 
the levee rather than an overtopping?
    Mr. Bahamonde. It was absolutely clear. I was standing in 
their communications room. There were several people around, 
and I believe I was standing next to Terry Ebbert when that 
call came in. And they were very descriptive as to where it 
was, that it was a clean break, because at that part of the 
levee there is a concrete wall, so there was no overtopping of 
that wall. They described that the wall had busted through and 
that water was pouring into the it.
    They asked at that time where exactly was the levee break, 
so we went to a map, and they were able to show me exactly 
where that levee break took place.
    Chairman Collins. And you saw the levee break later that 
day when you went up in the helicopter ride. Is that accurate?
    Mr. Bahamonde. I did, and it was exactly where they had 
described it, and it looked exactly as they had pointed it out 
in that 11 o'clock report.
    Chairman Collins. The reason I brought up the break versus 
the overtopping is if water were simply coming over the top of 
the levee, then the flooding eventually would subside. But if 
there is a break in the levee, the result is the water is just 
going to keep flooding into the city. Is that correct?
    Mr. Bahamonde. That is correct, and that is how it was 
described in that call.
    Chairman Collins. So since you heard this report at the 
city's Emergency Operations Center, is it safe to assume that 
pretty much the entire city emergency management apparatus 
became aware of that terrible news?
    Mr. Bahamonde. Yes, it was clear within the EOC that this 
news had come in. It filtered out probably over the next half-
hour, but it was clear everybody knew what had happened.
    Chairman Collins. Now, I realize that you were not involved 
in discussions that may have occurred outside the Emergency 
Operations Center, although one would think that most of the 
discussions would be within the Emergency Operations Center on 
what to do.
    You told the Committee that ``the city's only plan was to 
take everybody that they could and get them into the 
Superdome.'' I assume that you think that was not a very good 
plan for reacting to a break in the levee.
    Mr. Bahamonde. I found it amazing at that time as I watched 
from the parking lot of the EOC that there were truckloads of 
20, 30, or 40 people constantly being sent to the Superdome. I 
mean, the population of the Superdome almost doubled between 
Sunday night and Monday night after the hurricane had passed. 
And you knew the potential that the Superdome was going to 
flood. You knew what the break was. If you were able to project 
at all what the information that we had in front of us was 
going to lead to, it was curious to me that we would then 
continue to send people to an area that we knew was not 
sufficient, not supplied, and probably not the best place to 
collect people, considering that we still at that time had an 
opportunity to just drive shortly over the bridge, which was 
really not far from the Superdome, into the Algiers portion of 
town, which was not flooded, which did not have a levee break, 
and which was a safe haven for a lot of people.
    So I found that very peculiar at that time that that was 
the plan.
    Chairman Collins. And, indeed, the decision to keep moving 
people into the Superdome, which is already under incredible 
strains and pressure, exacerbated the problems being 
experienced by the victims who were already in the Superdome. 
Is that an accurate assessment?
    Mr. Bahamonde. Absolutely. As I stated already, 40,000 MREs 
were in place, and for 12,000 people for a couple of days that 
would last. But when you add to 20,000 to 25,000 people on 
that, you do the math and you realize you are out of food in a 
big hurry. And they knew that when they were bringing people to 
the Superdome, that there wasn't any kind of structure there or 
commodities to support what was happening.
    Chairman Collins. Now, there is a critical 16 or even 17 
hours between when you heard the transmission at the EOC and, 
that is, the city was notified of the break in the levee and 
when the water actually reached the Superdome.
    Now, I understand that in the immediate aftermath of a 
hurricane, conditions are still pretty bad. It is windy. It is 
difficult. But is there any reason in your judgment why the 
City of New Orleans, the State of Louisiana, FEMA, all of the 
emergency management entities could not have done more during 
that critical 16-hour period to evacuate people not only from 
other parts of the city but from the Superdome before the flood 
waters reached the Superdome and made everything so much more 
difficult?
    Mr. Bahamonde. In my opinion there was a systematic failure 
at all levels of government to fully comprehend the magnitude 
and the severity of the situation that was presenting itself on 
an hour-by-hour basis. It is the ability to project what is 
going to happen with the information that you have, and I did 
not see any action to that effect during Monday afternoon, 
Monday evening, and even in the overnight hours of Tuesday.
    Chairman Collins. Now, you mentioned in your testimony that 
you immediately got on the phone to FEMA officials in the 
morning after learning of the collapse of the levee to inform 
them of this very serious new development. You are not sure 
exactly when Michael Brown was informed in the morning, though 
there is some E-mail traffic that suggests that it was pretty 
quick after that. But later in the day, after you went up and 
saw the break in the levee firsthand, didn't you take a 
picture, first of all, which we are going to show,\1\ and as I 
understand it, you returned from your second flight and called 
Michael Brown? Is that correct?
---------------------------------------------------------------------------
    \1\ Exhibit No. 3 appears in the Appendix on page 62.
---------------------------------------------------------------------------
    Mr. Bahamonde. I did. As soon as I got off that second 
helicopter flight, really within a couple of minutes, I picked 
up the phone and I called Under Secretary Brown directly, and I 
began a 10- to 15-minute conversation that explained everything 
that I have already explained in my statement.
    Chairman Collins. What specifically did you tell Michael 
Brown in that phone call?
    Mr. Bahamonde. I told him that transportation into the city 
was non-existent, that all of the roads, highways, bridges were 
either destroyed or flooded and impassable. And I told him that 
there was going to be a critical need to get commodities into 
the city and that you weren't going to be able to do it by 
ground transportation and that the situation was only going to 
get worse because the levee that I had witnessed myself, as you 
can see there,\1\ was just pouring water into the city and 
there was no sign that was going to stop anytime soon.
    Chairman Collins. And what was his response?
    Mr. Bahamonde. He didn't ask me any questions. All he said 
was, ``Thank you. I am now going to call the White House.''
    Chairman Collins. Did he indicate what else he was going to 
do upon learning of this terrible development?
    Mr. Bahamonde. All he said was, ``Thank you. I am going to 
call the White House.''
    Chairman Collins. Do you happen to know whom he called at 
the White House?
    Mr. Bahamonde. I do not.
    Chairman Collins. I would now like to turn to another 
issue, and that is the provision of medical care at the 
Superdome. In his testimony before the House committee, 
Director Brown said, ``Marty both called me on cell phones and 
E-mailed me on Monday describing the general conditions, you 
know, that there were 15,000, 20,000 people there, the medical 
teams were there. It was a fairly routine kind of E-mail.''
    Did you, in fact, report to Director Brown on Monday that 
the medical teams were there?
    Mr. Bahamonde. No, because they had not arrived.
    Chairman Collins. Mr. Brown also testified before the House 
Committee that FEMA sent a medical team to the Superdome 
because ``that number of people, someone has a cold, someone 
gets cut, there has got to be something, so we had a medical 
team there also.''
    That seems to minimize how dire and serious the medical 
needs of the evacuees were. Is that assessment correct in any 
way? Was it just needed because people might have colds or 
cuts?
    Mr. Bahamonde. No, that is not correct because on Sunday, 
while at the EOC, there was an urgent call from the Superdome 
for oxygen tanks because the special needs patients that were 
placed there, many were on oxygen, many needed some sort of 
medical care. That is why they are special needs patients. And 
there was already a critical shortage, and they were looking to 
hospitals within New Orleans asking if any hospitals had any 
oxygen. The hospitals themselves were holding onto their oxygen 
because they had the same need.
    I conveyed that very same information up to FEMA 
Headquarters, and I know that on that day an E-mail went out to 
the staff that was supporting Under Secretary Brown that there 
was a critical medical need in the situation and that oxygen 
was one of the critical needs, and there was a lot of E-mail 
traffic to that effect.
    So I couldn't make it any more clear at that time to the 
people that I was talking to at headquarters and at the 
Regional Response Coordination Center in Denton, Texas, that if 
they did nothing else, to get a medical team into that 
Superdome as fast as possible.
    Chairman Collins. And the medical needs were clearly urgent 
for some of the evacuees if they were in need of oxygen. But 
also, later on, on Wednesday, when you personally sent Mr. 
Brown an E-mail, you talked about dying patients needing to be 
Medivaced. Estimates are that many will die within hours. So 
surely Mr. Brown must have understood that the medical team was 
needed for something far more serious than colds and cuts. Is 
that accurate?
    Mr. Bahamonde. It was. It was not a cold-and-cut mission. 
It was a life-saving mission. And they did that.
    Chairman Collins. For my final question of this round, I 
would like to turn to the issue of why you think that your dire 
warnings were not taken more seriously by FEMA officials. I am 
trying to understand whether we have organizational problems, 
leadership problems, resource problems, all of the above.
    In my remaining time could you comment on why you think 
there was not a better, more effective response?
    Mr. Bahamonde. Well, like I said, I don't think that they 
were able to comprehend or project what the situation was at 
that time. I also believe that I was a public affairs person. I 
wasn't an operational person. I wasn't there to do operations. 
I was just there as a public affairs person. So I don't know if 
that carried any less weight with anybody who was listening. 
But I tried my best to accurately describe what was happening. 
I tried to do it as it happened. I tried to in the strongest 
way that I could express what the situation was.
    But I truly believe that there was not the inability but 
they were unable to forecast and project the information that I 
provided to them as to what could really happen in the next 
several hours. And that still surprises me.
    Chairman Collins. Thank you very much for your testimony.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman, and thanks, Mr. 
Bahamonde. Let me just ask you again for the record how long 
you have worked for FEMA.
    Mr. Bahamonde. I have worked for FEMA for 12 years. I 
started in 1993.
    Senator Lieberman. Right, and so you are a civil servant.
    Mr. Bahamonde. Correct.
    Senator Lieberman. Right. And if I heard you correctly, you 
worked both here in Washington, and more recently you have been 
Regional Public Affairs Director out of Boston in Region One.
    Mr. Bahamonde. That is correct.
    Senator Lieberman. And beyond that, by your testimony, 
since 2003, Under Secretary--we know him as FEMA Director--
Michael Brown sent you out to do advance work in preparation 
for a series of natural disasters, including hurricanes, and, 
in fact, at one point dispatched you to Iran to help with a 
disaster. Is that correct?
    Mr. Bahamonde. That is correct.
    Senator Lieberman. So I would say from that record that 
Michael Brown must have had confidence in you, and I presume 
that is part of the reason why you were dispatched quickly to 
New Orleans. Correct?
    Mr. Bahamonde. That is correct.
    Senator Lieberman. To the best of your knowledge, were you 
the only FEMA employee sending reports back from New Orleans 
during those first days before the hurricane made landfall on 
Monday, August 29?
    Mr. Bahamonde. I was the only one because I was the only 
one there.
    Senator Lieberman. You were the only one there. Now, I want 
to just go into a little more about what you were sending back, 
and I believe if I refer by number to exhibits, they will put 
this up on the screen, and you have it there. Exhibit No. 6 \1\ 
is an E-mail from you, Sunday, August 28, the day before 
landfall for Hurricane Katrina. The time is 4:40 p.m., and this 
is to Michael Heath. Could you identify Mr. Heath?
---------------------------------------------------------------------------
    \1\ Exhibit No. 6 appears in the Appendix on page 65.
---------------------------------------------------------------------------
    Mr. Bahamonde. Michael Heath was Under Secretary Brown's 
special assistant in the front office here at headquarters.
    Senator Lieberman. OK. And the reason I mention that one is 
that you say in that E-mail, ``Currently 2,000 inside the 
Superdome with about 300 special needs''--meaning there are 300 
people who have some kind of medical conditions, I presume.
    Mr. Bahamonde. That is correct.
    Senator Lieberman. ``National Guard is setting up cots. 
Medical staff at the Dome say they expect to run out of oxygen 
in about 2 hours and are looking for alternatives.''
    Now, give me a little background on that. What does that 
mean? What was the oxygen being used for?
    Mr. Bahamonde. Well, many of the special needs patients 
were on oxygen, and so when they were taken to the special 
needs shelter, there was that requirement that oxygen go with 
them. But it became clear that this was not going to be a short 
stay at the Superdome, I think even at that early time. And so 
they knew that they were going to run out of oxygen, and at 
that time they were looking at other hospitals within New 
Orleans. But they all projected that they were going to have 
that same need when they lost power. And so they were unable to 
get any additional oxygen into the Superdome.
    Senator Lieberman. OK. So I go to this E-mail because what 
it shows us is that on Sunday afternoon you are sending an E-
mail to the special assistant, to Michael Brown making very 
clear that this is not just people who might get a cold. There 
are people in there depending on oxygen, and it is about to run 
out. Correct?
    Mr. Bahamonde. That is correct.
    Senator Lieberman. Do you know whether Michael Heath 
discussed that E-mail with Michael Brown?
    Mr. Bahamonde. I do not.
    Senator Lieberman. Based on your own experience with Mr. 
Heath and Mr. Brown in the past, would you assume that he would 
have conveyed that information to Michael Brown?
    Mr. Bahamonde. He is a special assistant in the front 
office. His office is in the main office suite in the front 
office. So if he doesn't convey it to Under Secretary Brown 
directly, I would assume that he conveyed it to the staff that 
was in FEMA Headquarters and that someone would convey that 
information onward.
    Senator Lieberman. OK. Now, I believe you said in your 
testimony that you took pictures on Sunday and sent them via 
Internet to FEMA Headquarters. I don't know whether you can 
call up any of the pictures or a staff assistant over there 
can, but I----
    [Pictures displayed.]
    Mr. Bahamonde. I think it was the first one.\1\
---------------------------------------------------------------------------
    \1\ Exhibits No. 1 thru 6 appear in the Appendix on pages 60 and 65 
respectively.
---------------------------------------------------------------------------
    Senator Lieberman. Yes. And this would have gone to whom? 
To Mr. Brown's office?
    Mr. Bahamonde. No. I sent that picture to FEMA Public 
Affairs.
    Senator Lieberman. Ms. Taylor.
    Mr. Bahamonde. I sent it actually to Bill Koplitz, who was 
the FEMA photo editor, and I sent it to him so that he could 
post it on FEMA's website and so that people could get an 
understanding of what was developing outside----
    Senator Lieberman. That is it on the screen right now.
    Mr. Bahamonde. That is one of the pictures I took, correct.
    Senator Lieberman. And why don't you just briefly describe 
what that is.
    Mr. Bahamonde. I was standing on an overhead platform 
looking toward the southern part of the city, and you can see 
by then that the crowd was already well down to the street into 
the next block and eventually would wrap around the building. 
And this was still early on.
    Senator Lieberman. This is early Sunday?
    Mr. Bahamonde. Early Sunday, I know that because at 
approximately 3 o'clock, one of the first feeder bands came 
through and completely soaked all of the people and their 
possessions.
    Senator Lieberman. Right.
    Mr. Bahamonde. All the pillows, all the blankets, 
everything that they brought, were now wet. So the National 
Guard then took everybody up onto a platform around the 
Superdome so that they had some protection. But by that time 
everybody was wet. So I know that picture was taken early even 
before that happened.
    Senator Lieberman. And in response to the pictures, the E-
mails about the swelling humanitarian crisis in the Superdome, 
on early Tuesday morning--it took until early Tuesday morning, 
I gather, for the first Disaster Medical Assistance Team to 
arrive, one team. My reaction to that--you tell me; this is 
your field--is that was, in response to what you were 
describing, there was a need for more than one Disaster Medical 
Assistance Team in the Dome. Would you agree?
    Mr. Bahamonde. Certainly multiple Medical Assistance Teams 
would have been helpful. I think what happened on that day was 
there was no anticipation when Sunday started that there would 
be a need to supply or support the events at the Superdome. But 
as the city opened it up by around noon and crowds began to 
arrive, I----
    Senator Lieberman. Noon on Sunday?
    Mr. Bahamonde. On Sunday. I am sorry.
    Senator Lieberman. Right.
    Mr. Bahamonde. I know that FEMA began to discuss getting a 
medical team in there. The closest medical team at that point 
was in Houston.
    Senator Lieberman. Right.
    Mr. Bahamonde. Now, medical teams travel in high-profile 
vehicles, by which I mean large trucks which carry their 
supplies and everything. And they are really restricted from 
traveling in winds over 30 to 40 miles an hour. I do know that 
medical team left Houston late that afternoon and traveled to 
Camp Beauregard in Louisiana and arrived there at around 11 
o'clock that night. But because of the intensifying conditions 
of the storm, the high winds, the rain, the decision was made 
that they were unable then to get into the Superdome that 
night.
    I have subsequent E-mails that I think strongly urged in 
any way possible to get the medical team there because I knew 
if they didn't get in Sunday, chances are they weren't going to 
arrive until Tuesday, and we already had a medical crisis in 
the Superdome.
    Senator Lieberman. That leads me to ask this question, and 
give me a short answer because time is running. As I look at 
what happened in this disaster and how the Federal Government 
failed, one of the questions I asked, as I asked in my opening 
statement, why was it possible for you as a Public Affairs 
Director to make it into New Orleans in response to the clear 
warnings that exactly what we feared for years, a hurricane 
Category 4 or 5 and the flooding of New Orleans, was about to 
happen and FEMA dispatches one person, the Public Affairs 
Director, before the storm hits, but not the disaster teams, 
the search and rescue teams, the emergency response teams. Why 
did that happen?
    Mr. Bahamonde. Well, the reason is because one thing FEMA 
doesn't want to do is to stick staff and resources in the 
direct path of the hurricane itself, because if you need to 
move those commodities, you need to move staff, but they are 
stuck in a situation riding out a storm, they are less able to 
mobilize and activate. So FEMA takes the approach that we 
surround the perimeter of where ground zero may be for any kind 
of a hurricane or disaster, and then when the storm passes, 
then mobilize their assets into that location.
    Senator Lieberman. But I must say that is something I think 
we all have to, as this goes on, ask ourselves whether it makes 
sense. You were able to get in. Wouldn't we all have been 
better off, wouldn't the people of New Orleans have been better 
off if the search and rescue, medical assistance, and emergency 
response teams had also gotten in? I mean, that is where 
disaster response people ought to be. That is where the local 
emergency operations people were, which is where the storm was 
most likely to have the most damage.
    I want to come back to something else, another question I 
raised. You testified--Senator Collins asked you questions 
about, from early Monday morning you had received information 
that the levees had broken, Monday, August 29.
    Mr. Bahamonde. That is correct.
    Senator Lieberman. The storm hits New Orleans, and the 
waters begin to surge. You sent E-mails--there is validation of 
that--about 1:40 and an E-mail from Cindy Taylor that we have 
as part of the record.\1\ During the day you have the 
conversations that you have described. You even take pictures--
which maybe while I am talking you could put up pictures--of 
the flooding on Monday back to FEMA Headquarters. And yet I 
want to read to you comments from Secretary Chertoff on ``Meet 
the Press'' on the following Sunday, where he says, ``It was on 
Tuesday that the levee''--``it may have been overnight Monday 
to Tuesday that the levees started to break, and it was midday 
Tuesday that I became aware of the fact that there was no 
possibility of plugging the gap and that essentially the lake 
was going to start to drain in the city.''
---------------------------------------------------------------------------
    \1\ Exhibit No. 14 appears in the Appendix on page 66.
---------------------------------------------------------------------------
    Secretary Rumsfeld, on September 6, in a briefing at the 
Pentagon, says, ``The original blow was the storm. New Orleans 
escaped a great portion of it. If you are talking about New 
Orleans.'' The flood followed that by a day, Tuesday.
    General Myers said, ``I think before the storm even hit, 
actions were being undertaken in the Pentagon.'' He says, ``On 
Tuesday, at the direction of the Secretary and the Deputy 
Secretary, on Tuesday we went to each of the services. I called 
each of the chiefs of the services one by one and said, `We 
don't know what we are going to be asked for yet.' ''
    On Tuesday, after you have been saying for more than 24 
hours that the levees have already broken, the Weather Service 
has been saying for more than a week that this is going to be 
the feared Category 4 or 5 hurricane. On Tuesday, General Myers 
says, ``We don't know what we are going to be asked for yet. 
The levees and the flood walls had just broken, Tuesday.''
    Now, how do you explain that after you, FEMA's person on 
location, were saying from Monday morning--talk about precious 
hours. Senator Collins talked about those 16 hours. The floods 
are beginning to rise. When the 17th Street levee broke, it 
took a while. The 9th Ward, when the Industrial Canal broke, 
flooded almost immediately. The Lake Pontchartrain flooding, as 
the lake came into the City of New Orleans, took a day and a 
half.
    I just say to myself, if they had listened to you early and 
gotten more emergency teams in, more Department of Defense 
personnel, maybe some lives that were lost could have been 
saved. How do you explain those comments about Tuesday from 
Secretaries Chertoff and Rumsfeld and General Myers?
    Mr. Bahamonde. I don't know if I have an explanation. I 
know I was there to provide information. I gave it when I knew 
it. I gave it to as many people as I possibly could. Maybe I 
wish I would have called them instead. It is easy to Monday 
morning quarterback, but I knew at 11 o'clock, FEMA 
Headquarters knew at 11 o'clock, Mike Brown knew at 7 o'clock, 
most of FEMA's operational staff knew by 9 o'clock that 
evening. And I don't know where that information went.
    Senator Lieberman. My impression from some of the testimony 
you gave to our staff was in that 9 o'clock conference call 
with FEMA staff--and you correct me if I have misinterpreted 
this--you felt there wasn't the level of response that you 
hoped for, that the response seemed to almost be that, well, 
you are not telling us anything we don't know. But it seemed to 
me that you were telling them something that at least Secretary 
Chertoff and Secretary Rumsfeld apparently did not know until 
the next morning.
    Mr. Bahamonde. When I made that conference call, I remember 
when the conference call ended, Scott Wells, who is the Deputy 
Federal Coordinating Officer, said to me on the call, he said, 
``Thanks, Marty. We already knew most of this information, but 
thanks for providing it.'' And that comment struck me and it 
stays with me today because I know when I went up in that 
helicopter, there were only three helicopters in the air at the 
time, all Coast Guard. And when we flew over the bridge to 
Slidell, the Coast Guard helicopter said to me, ``Wow, nobody 
has been out here before. I wonder what we are going to find.''
    So I knew that there were maybe five people in the whole 
world, those of us that were on that helicopter, that knew that 
information. And so I was disturbed when somebody said, ``We 
already knew all that,'' because I knew it just wasn't 
possible.
    Senator Lieberman. Mr. Bahamonde, is the picture on the 
screen now one of those you took from the helicopter on Monday 
afternoon?
    Mr. Bahamonde. That is. That is a picture of a 
neighborhood,\1\ and the reason I took that picture was, if you 
can see how the buildings are structured, you can already tell 
that homes were already taken off their foundations. They are 
all mixed up together. And it already told me that the water 
depth in many places was 10, 11, 12 feet deep, and that was, 
you know, at 5 o'clock Monday afternoon.
---------------------------------------------------------------------------
    \1\ Exhibit No. 4 appears in the Appendix on page 63.
---------------------------------------------------------------------------
    Senator Lieberman. Do you remember whether that was the 9th 
Ward or----
    Mr. Bahamonde. No. This picture was taken out closer to 
where the 17th Street Canal levee break was.
    Senator Lieberman. So this is the beginning of Lake 
Pontchartrain draining into New Orleans.
    Mr. Bahamonde. Absolutely.
    Senator Lieberman. And it looks from here like the water is 
up in some cases close to the roof of the dwellings.
    Mr. Bahamonde. I think many of the homes that you can see 
there, all you see is the rooftop.
    Senator Lieberman. Yes. And, again, when did you send that 
to FEMA Headquarters in Washington?
    Mr. Bahamonde. I actually did not send this photo because 
at that time there was no power, there was no Internet service, 
there was no capability of doing it. I took it just for the 
record.
    Senator Lieberman. But this is the scene you described in 
the direct conversation with Michael Brown that evening and in 
the conference call at 9 o'clock.
    Mr. Bahamonde. Absolutely.
    Senator Lieberman. Thank you.
    Chairman Collins. Thank you. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    As I sit and listen to this testimony, I reflect on the 
history of military organizations, and I have spent much of my 
life studying it, and with some limited extent myself in 
situations. The enemy here was Mother Nature, but many times 
have military units been overcome with situations where those 
in command and those trained to do what had to be done just are 
not able to do it, and the responsibility falls to someone who 
may not have the military occupational specialty to do it, but 
they do it anyway. And apparently, I think, from what I gather 
here in this brief few moments of the testimony, you discharged 
yourself very well and very commendably, drawing on your assets 
and experience and not just limiting yourself to that of a 
public affairs officer.
    In that historic call to Brown where you described things 
and so forth, did you suggest that there be persons of 
operational qualifications dispatched immediately to come down 
there?
    Mr. Bahamonde. Well, I think it was obvious that the need 
existed to provide some coordination to what was going to be 
needed at the Superdome, yes.
    Senator Warner. But you didn't specifically say to him, 
``Hey, boss, we got a problem here, and you better send some of 
the trained operators down as fast as possible'' or something 
like that?
    Mr. Bahamonde. No, I didn't specifically request that. I 
assumed, the way that we always do business, that would happen.
    Senator Warner. Was there any protocol problem, namely, 
with the timing of the request from either the governor or the 
mayor or something that should trigger the entrance of FEMA 
people?
    Mr. Bahamonde. Well, like I said, I think FEMA always has 
taken the position not to put people in harm's way. And I think 
what surprised me is that there was capability to get a team in 
there on Monday but that the team didn't arrive until Tuesday 
around noon.
    Senator Warner. You said very forthrightly there was a 
systematic failure at all levels of government to fully 
recognize the seriousness of the situation. Were the facts 
available in your judgment to those in our government at 
different levels to make an assessment of the seriousness of 
this situation?
    Mr. Bahamonde. I believe so, yes.
    Senator Warner. You have had other experience, and you have 
been the man on the scene many times. Was this in your judgment 
the seriousness that came to your professional background as 
one that demanded prompt attention? There was no hesitation on 
your part to make an assessment of the facts and the needs and 
the requirements that should be brought to bear, was there?
    Mr. Bahamonde. In all my years in FEMA, there has always 
been a discussion of what the worst-case scenario would be, and 
it always centered around a Category 4, Category 5 hitting New 
Orleans. And like I said, I have already testified, I think at 
that time I was describing that worst-case scenario because it 
was happening, it was developing. And so I don't think anybody 
should have been caught short that there wasn't a serious 
situation developing.
    Senator Warner. Now, you described the three helicopters, 
and they were all Coast Guard, but I think the record should 
reflect you saw no helicopters provided by the City of New 
Orleans or the State functioning at that point in time, did 
you?
    Mr. Bahamonde. I did not see any. That doesn't----
    Senator Warner. Do you have any information that others may 
have been operating?
    Mr. Bahamonde. I do not. All I saw was Coast Guard 
helicopters.
    Senator Warner. Well, presumably had there been others up, 
they would have been coordinating with the Coast Guard, if only 
for personal safety flying around in the same airspace.
    Mr. Bahamonde. And I do know that when we were doing the 
flyover, that was one of the concerns for the Coast Guard. We 
were identifying where other Coast Guard helicopters were 
because the last thing they wanted to do was duplicate rescue 
efforts at the same location.
    Senator Warner. Were the city or State emergency operations 
or first responders positioned to report regarding 
infrastructure damage, rescue needs, or the situation at the 
Superdome?
    Mr. Bahamonde. Well, there was somebody that was situated 
out by that levee break because they had an eyewitness account. 
But I don't know the extent of where the city had placed people 
in and around the city to provide situational awareness.
    Senator Warner. Well, I thank you very much. I thank you, 
Madam Chairman. This is a very important hearing in your record 
on this subject.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman and Senator 
Lieberman, for your thorough commitment to oversight, which is 
so essential. This Committee is, again, leading the way, and it 
is important that we do so, and I commend you both on it.
    And I want to commend you, Mr. Bahamonde. Give me the 
official pronunciation. I think our Chairman and the others 
have pronounced it correctly, but let me make sure. Is it 
Bahamonde?
    Mr. Bahamonde. Bahamonde.
    Senator Levin. I want to thank you for your direct 
testimony, for your courage in what you did in New Orleans. The 
story you tell is incredibly discouraging, incredibly powerful, 
and incredibly straight. And it conflicts in very serious ways 
with the story that the Director, Mr. Brown, told the House of 
Representatives, and I want to go into those differences in a 
moment because there are some very serious conflicts between 
you and the Director, the FEMA Director.
    But before I do that, I want to just pick up on one thing 
that Senator Lieberman mentioned, and that has to do with the 
fact that Secretary Chertoff, Secretary Rumsfeld, and General 
Myers--these are the three people who are in charge really of 
implementing a response, one head of the Defense Department, a 
civilian; the other one, head of our military; and the other 
one, the head of the Department of Homeland Security--say that 
they didn't know about the break in the levee and the flooding 
that resulted until almost a day after it occurred, and as the 
Chairman points out, 16 hours or more after you directly told 
Mr. Brown, the FEMA Director. That is incredible. It is a huge 
breakdown of some kind in communications.
    But at least one thing they might have learned is if they 
had watched television on Monday night because Mr. Brown was on 
television Monday night, and he said that--and apparently this 
is right after you spoke to him, but at 9 o'clock, for 
instance, on MSNBC he says, ``I have already told the President 
tonight that we can anticipate a housing need of at least tens 
of thousands,'' and he reported on television that his folks in 
the field--I guess you are it--have reported to him that 
literally tens of square miles are inundated with water up to 
the roofs.
    So your message got through to Brown. His message was on 
national television of the flooding, the massive flooding, tens 
of square miles of homes. And that message apparently got to 
the President from Mr. Brown on Monday night, but yet we have 
our three implementing leaders incredibly saying that they 
didn't know about anything this significant until 16 to 24 
hours later.
    And I know the Committee will be inquiring of them as to 
how that is possible. Where was that breakdown? It is not just 
in communicating one to one or through the usual channels of 
communications. It is on television. On CNN at 10 p.m. on 
Monday, Mr. Brown says, ``We now have literally neighborhood 
after neighborhood that is totally engulfed in water.'' So it 
was clear on Monday night to Mr. Brown and at least to the rest 
of the world--and to the President, apparently--that we had 
this kind of a massive problem. And yet Chertoff, Rumsfeld, and 
the Chairman of the Joint Chiefs didn't learn of it, they say, 
until the next day.
    That is something which I know the Committee will be 
pursuing, and you cannot answer, but I just wanted to add that 
one element that there were national television stories 
covering Mr. Brown's statements, which obviously followed your 
conversation with Mr. Brown since there was no other source 
that he would have.
    The question I want to talk to you about and I need your 
responses has to do with the differences in what you have 
testified to and what Mr. Brown told the House of 
Representatives. How many people, FEMA people, were 
prepositioned at the Superdome or in New Orleans?
    Mr. Bahamonde. One.
    Senator Levin. And that was?
    Mr. Bahamonde. Me.
    Senator Levin. OK. Now, you have Mr. Brown telling the 
House of Representatives something very different, and maybe 
you can explain it. Maybe there is an explanation for it, but 
it seems a direct conflict to me. This is Representative 
Thornberry saying that he understood that the Emergency 
Coordinator for the city had chosen the Superdome as a shelter 
for people in the city, and that Mr. Brown said he did not make 
that decision, that was the city's decision. And Thornberry 
said, ``It was something the city chose. You knew about it.'' 
``That is correct.'' And then Thornberry says, ``So you have 
testified that you put some water and MREs there and some 
people before the hurricane hit.'' ``Put some people in the 
Superdome before the hurricane hit.''
    ``What were the people supposed to do?'' Representative 
Thornberry said, and here is what Mr. Brown says: ``There were 
two groups of people. One was a FEMA team, kind of a mini-
Emergency Response Team to help, again, push through the 
standard unified command structure, the needs of what was going 
to be in the Superdome.''
    Do you know, was there any FEMA team, any mini-Emergency 
Response Team there in the Superdome to do that?
    Mr. Bahamonde. Not prior to the storm.
    Senator Levin. I mean prior to the storm.
    Mr. Bahamonde. No.
    Senator Levin. Because that is what he is talking about. 
And then he said, ``It consisted of a gentleman by the name of 
Phil Parr, who is one of the Federal Coordinating Officers, a 
very smart man, and a career employee by the name of Marty 
Bahamonde, who has been with FEMA for numerous years, an 
excellent employee. I put those two in to help liaison between 
the mayor's office and the State EOC and myself.''
    I mean, you were there, obviously. Was Mr. Parr there 
before the--was he prepositioned there?
    Mr. Bahamonde. No, he wasn't.
    Senator Levin. And then he said, ``Then we also put a 
contingent of the National Disaster Medical Team because we 
knew there would be medical needs for people, you know, a 
number of people.'' And this is what the Chairman has made 
reference to, that someone has got a cold, someone gets a cut.
    ``So we had a medical team there also.'' And then 
Representative Thornberry says, ``And so how many total FEMA 
people were prepositioned, approximately, at the Superdome?'' 
Mr. Brown: ``Counting the team, which I will count as FEMA 
people, you know, a dozen.''
    Prepositioned at the Superdome. Were there a dozen people 
prepositioned by FEMA at the Superdome counting those teams?
    Mr. Bahamonde. No, there were not.
    Senator Levin. All right. Well, Madam Chairman, I think you 
also pointed out a conflict in some of the statements of Mr. 
Brown. The testimony that you elicited had to do with the MREs 
and the water, I believe, where there are just clear conflicts 
here between the testimony which we have received this morning 
and the House of Representatives. And obviously it is up to the 
Chairman, but I think it would be appropriate that the House be 
informed that there are some serious conflicts. Mr. Brown 
testified under oath. As I understand it, he testified under 
oath.
    And so I would expect that they will read about this in the 
paper, but more than that, it seems to me that this is--and 
these are not the only conflicts--that this is significant 
enough that our staffs need to pull out the conflicts from the 
testimony, or the apparent conflicts from the testimony, and to 
refer them to the House of Representatives.
    Chairman Collins. Senator, I would say that I know the 
House is following our hearings very closely. I, too, in my 
opening statement made reference to the issue that you just 
raised about the prepositioning of personnel. There is a 
discrepancy on food. There is a discrepancy on a variety of 
very critical issues. And obviously one of the important things 
we are doing here today is establishing a record that we will 
subsequently ask Mr. Brown about when he is called before the 
Committee to testify.
    Senator Levin. All right. I thank the Chairman.
    Another area that I would like to go into with you has to 
do with the time when you left. You were pulled out of there 
basically by the National Guard, as I understand it. They told 
you that you should leave, that you were not safe. You 
disagreed with that decision very strongly, and you left 
nonetheless. I mean, you were told to leave, and you followed 
the orders. And, by the way, I have no quarrel with what you 
did. Quite the opposite. You stood your ground as long as you 
could, and the National Guard Director said you folks have got 
to leave. So my issue is not that at all. I commend you for the 
effort. You put up an argument, you put up the struggle that 
you put up to stay there. It was typical of the kind of courage 
that you showed.
    But I want to go beyond that as to what followed from that 
because there were apparently buses that had been lined up to 
remove people from the Superdome first and then from the 
Convention Center. Those buses were sitting at some kind of a 
restaurant, I believe, 25 miles outside of New Orleans, waiting 
for directions to come and evacuate people from the Superdome.
    When you and your other folks by then, your teams, were 
told to leave, something very critical fell through the cracks, 
and those were those hundreds of buses that were sitting there 
waiting for directions to come and evacuate people first from 
the Superdome.
    So far am I accurate? Because it is a long question. Is 
that basically what happened, that there were those buses that 
were lined up on Wednesday and Thursday waiting for the 
direction to come in and evacuate?
    Mr. Bahamonde. Well, the buses were already deployed and at 
the Superdome when we were evacuating because as we left the 
Superdome, we were passed by several buses with evacuees on 
them. So I know that effort had already begun.
    Senator Levin. All right. There was a newspaper article 
that said there were hundreds of buses that were waiting, I 
think, at a truck stop--let me just quote the Dallas Morning 
News. It made reference to a Texaco truck stop on the 
interstate near La Place, Louisiana, 25 miles outside of the 
city. Are you familiar with that? Were you involved in trying 
to get buses to locate there, to deploy there?
    Mr. Bahamonde. No, I didn't have any knowledge of where 
those buses were at that time.
    Senator Levin. OK. Is the name of the National Guard 
official in Louisiana General Veillon? Did you have any contact 
with him?
    Mr. Bahamonde. Not specifically. That doesn't ring a bell.
    Senator Levin. All right. Let me read this to you, and I 
will read you this one paragraph and tell me whether you have 
any knowledge about this from that article. ``He said that 
FEMA's departure left Guard officials scrambling to keep the 
bus evacuation moving. He said he remembered someone from FEMA 
mentioning a Texaco truck stop on the interstate near La Place, 
25 miles outside of the city, would be a staging area for 
incoming bus convoys. He''--the general--``flew there the next 
morning''--which I guess would be Friday morning--``and found 
several hundred buses. Some of them had been waiting for orders 
for a day.''
    And then he the next morning, now Friday, sent food to the 
Convention Center and on Saturday began moving people out from 
the Convention Center.
    Here is the issue: Because of that day delay, according to 
this article, if it is accurate, the people were delayed a day, 
first being--a lot of people were not evacuated that could have 
been evacuated, first from the Dome, and then a day later than 
they would have been evacuated from the Convention Center 
because of this mess-up, confusion.
    Do you know who it might have been from FEMA who mentioned 
those hundred buses waiting at a truck stop to the Guard as 
FEMA people were told to leave? Do you know who that would have 
been?
    Mr. Bahamonde. Well, the person in control of the operation 
for FEMA at the Superdome was Phil Parr, and I know he was the 
one that was most instrumental in dealing with the bus issue. 
So I would assume if that conversation took place, it took 
place with Phil Parr.
    Senator Levin. All right. But then you weren't privy to 
that conversation?
    Mr. Bahamonde. No, I wasn't.
    Senator Levin. And just to be real clear, again, on the 
testimony, the medical team which arrived at the Superdome was 
not prepositioned, nor was any team prepositioned at the 
Superdome prior to the hurricane.
    Mr. Bahamonde. You are correct.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman, for holding this 
very important hearing.
    Mr. Bahamonde, I commend you, as others have, for your 
courage, both in being in New Orleans during that critical time 
and also coming before this Committee.
    I want to refer also to testimony that Mr. Brown made, and 
he did indicate that he knew he was under oath just before he 
referenced the--or made some of the comments that Senator Levin 
just referenced. But Mr. Brown then went on to say, regarding 
this so-called team that was in New Orleans prepositioned, and 
he did indicate you in particular. He said, ``In fact, Marty 
both called me on cell phones and E-mailed me on Monday 
describing the general conditions. You know, there were 15,000, 
20,000 people there. The medical teams were there. It was a 
fairly routine kind of E-mail.''
    He then goes on to say, ``Then Marty later was able to 
communicate to me the information that they had plenty of food, 
but by Tuesday or Wednesday, they did need additional supplies, 
and he was trying to get additional supplies there.''
    I then go to your E-mails. According to the records we 
have, on Sunday evening you are E-mailing Michael Heath saying, 
``Medical staff at the Dome say they expect to run out of 
oxygen in about 2 hours.'' Again, Sunday evening, ``Everyone is 
soaked. This is going to get ugly real fast. Everyone here at 
the EOC is very concerned with what might happen here.''
    Again, Sunday evening, ``Our intel is that neither the 
Oklahoma DMAT nor the public health officers staged in Memphis 
will make it to the Superdome tonight. Oxygen supply issue has 
not been solved yet either. But I talked to the front office 
and was told that this was the `solution.' ''
    It seems to me there is great disparity between what your 
E-mails--and I don't know where in the chain of authority with 
FEMA they were directed, but the Director is saying that as of 
Monday he is getting routine E-mails from you that the 
situation is seemingly reasonably well in hand, and your E-
mails that preceded that Sunday evening seem to indicate to me 
that you were aware this was a very critical situation and, as 
you said, getting ugly real fast.
    Can you explain that disparity?
    Mr. Bahamonde. I can't other than I know that nothing I did 
was routine as I tried to express in the best way that I could, 
and maybe I didn't express it well enough, the urgency and the 
need for a medical team before the hurricane hit because there 
was already a critical situation developing there on Sunday.
    Senator Dayton. Would you expect, knowing how FEMA 
operates, that the Director would be knowledgeable at the time 
on Sunday or at least on Monday of how many FEMA employees 
actually were on site in New Orleans?
    Mr. Bahamonde. I would expect that he would know.
    Senator Dayton. So when he would testify subsequently, even 
having had a chance to refresh his memory as to a dozen, 
including a medical team that were prepositioned, when, in 
fact, you were the only one there, that would be information 
that you would expect him to have?
    Mr. Bahamonde. I would hope so, yes.
    Senator Dayton. Would you expect these kinds of 
communications that you made on Sunday evening regarding the 
conditions in New Orleans and at the Superdome, would you 
expect that to have been transmitted by these individuals--
Michael Heath, Cindy Taylor, and Deborah Wing? Would you expect 
that to have been communicated to the Director?
    Mr. Bahamonde. Well, I would certainly hope that contacting 
Mike Heath--and that is one of the reasons why most of my 
conversations, most of my phone calls and E-mails were to Mike 
Heath, because I knew he was the special assistant to the Under 
Secretary and was in the front office, and if it wasn't him 
directly, that it would have been the chief of staff or the 
deputy or somebody would convey that information.
    The other information that went through Cindy Taylor I know 
was passed on to Natalie Rule and Nicol Andrews. She's the 
Director of Communications for the agency and the Deputy 
Director of Communications. At some point, you think enough 
people know that the word would have to get to the Under 
Secretary.
    Senator Dayton. In your testimony this morning, you say 
that the National Guard told you that they expected 360,000 
MREs and 15 trucks of water to arrive that Sunday evening. As 
the storm intensified outside, instead of those numbers, only 
40,000 MREs arrived; instead of 15 trucks of water, only 5 
arrived; and the medical team did not arrive either.
    You have described why the medical team couldn't make it. 
What was the reason that so many of the MREs and the water did 
not arrive?
    Mr. Bahamonde. I don't have any idea.
    Senator Dayton. When you said the National Guard told you 
that they expected 360,000 MREs--this is on Sunday evening--did 
that seem like an appropriate response at that time, a 
necessary number of MREs to have to handle the situation?
    Mr. Bahamonde. Well, it certainly sounded like good news. I 
mean, 360,000 MREs for 12,000 people would tell me that they 
could stay there for quite a while.
    Senator Dayton. Right. And could you indicate the 
chronology then? Was food and water then forthcoming during the 
next couple of days? I think you indicated that you were able 
to serve two meals a day and that there was sort of a just-in-
time kind of flow of food and water. Is that correct or not?
    Mr. Bahamonde. The difficulty with the food at the time, 
once we knew we didn't have any, was trying to locate it within 
the arena of New Orleans and how to get it in. I specifically 
remember that I worked diligently with the person who was 
commanding the Coast Guard helicopters, and I specifically 
asked them, Can you send a helicopter out to a location where I 
had been told there were five trucks of food and water--but I 
had no idea if they were actually there. There was just a 
report that they were. And I wanted the Coast Guard to fly out 
there to actually see and let me know that is where some food 
was. The Coast Guard did fly out there, confirmed it, landed, 
cut open the trucks--because there were no drivers left with 
those trucks. They were just dropped at a location--and started 
to put food and water into their helicopter and deliver it to 
the Superdome. If that didn't happen, there was not going to be 
any food there Tuesday night.
    Senator Dayton. This is an E-mail from Cindy Taylor to you, 
and I guess actually it was an original message from Sharon 
Worthy to a Valerie Smith, so I will correct that: ``Please 
schedule Joe Scarborough this evening for the 9 p.m. Central 
Standard Time period. I spoke with his producer and told him to 
call you. Mr. Brown wants to do this one. Also, it is very 
important that time is allowed for Mr. Brown to eat dinner. 
Given that Baton Rouge is back to normal, restaurants are 
getting busy. He needs much more than 20 or 30 minutes. We now 
have traffic to encounter to get to and from the location of 
his choice, followed by wait service from the restaurant staff, 
eating, etc. Thank you, Sharon Worthy, Press Secretary.''
    Is this a typical command mode while a crisis of this 
magnitude is unfolding?
    Mr. Bahamonde. It hasn't been my experience.
    Senator Dayton. At this point, the Under Secretary was in 
Baton Rouge?
    Mr. Bahamonde. Correct.
    Senator Dayton. And is that the appropriate location for 
him given the communications network, the transportation 
difficulties and the like, or should he have been elsewhere, 
positioned elsewhere?
    Mr. Bahamonde. Well, I think it was appropriate that he was 
in Baton Rouge. I mean, that is where the EOC, the State EOC, 
that is where really everything that was happening, the command 
center, so to speak, was coming out of the EOC. So I found it 
appropriate that he was in Baton Rouge.
    Senator Dayton. Who made the decision, I guess on Sunday, 
to house people who could not evacuate at the Superdome?
    Mr. Bahamonde. I believe that was the mayor.
    Senator Dayton. And once the doors opened, whoever could 
get inside just entered?
    Mr. Bahamonde. Once it was made known that the Superdome 
was now a shelter of last resort, people came in droves. And it 
struck me because people were pulling up in pickup trucks and 
literally unloading the back of pickup trucks with coolers and 
boxes and pillows, and my impression was, Did they expect to 
stay for a couple of weeks? Because I was floored by how much 
stuff people were bringing to the Superdome on Sunday.
    Senator Dayton. And then when the levees broke and the 
flooding began, that drove more people to the Superdome?
    Mr. Bahamonde. Correct, and thousands more were either 
walking to the Superdome, they were being driven in National 
Guard trucks. There were Fish and Wildlife trucks that were 
bringing people. It was a constant flow of people really 
starting mid to late Monday afternoon, the rest of that 
evening.
    Senator Dayton. You describe wading in water up to your 
waist--is this correct?--to the Hyatt, which is--is that across 
the street from the Superdome? What was the level of the water 
at its peak relative to the entrances to the Superdome?
    Mr. Bahamonde. I think there is a picture of the situation 
right outside the Superdome where you can tell the level of the 
water depth by cars.\1\ I mean, there were cars that were 
literally underwater.
---------------------------------------------------------------------------
    \1\ Exhibit No. 5 appears in the Appendix on page 64.
---------------------------------------------------------------------------
    Senator Dayton. What prevented the water from flooding the 
Superdome? The doors were all closed at that point?
    Mr. Bahamonde. Well, the Superdome is elevated. It is 
probably elevated about 15 to 20 feet above ground level to 
where people access it. Certainly the basement of the Superdome 
was flooding because I took a picture of that as well, and that 
is a picture of right outside the Superdome. You can see some 
cars to the left there were almost up to their roofs, and other 
cars. So it was a good four feet.
    Senator Dayton. With the benefit of hindsight, but at that 
time when the local authorities made the decision to use the 
Superdome as a refuge of last resort, was that the proper 
decision at that time?
    Mr. Bahamonde. Well, in hindsight, no.
    Senator Dayton. What would have been the better 
alternative?
    Mr. Bahamonde. What surprised me is when--I don't think I 
had a problem with them putting people in the Superdome before 
the storm because there aren't many places where you can stick 
12,000 people and have them safe. What surprised me was after 
the storm, when the flood waters were as they were, that 
thousands more people were brought to the Superdome because, A, 
you knew you were not going to be able to get commodities in 
there very easily; B, you knew there were no commodities in 
there; and so you just doubled the population and really took a 
bad situation and made it so much worse when you had options to 
just drive them out of the city across the bridge. You were 
driving them into the Superdome. Why didn't you just take them 
across the bridge?
    Senator Dayton. This was before or after the--this is after 
the levee broke and----
    Mr. Bahamonde. This was after the levee broke. This was, 
you know, on Monday afternoon.
    Senator Dayton. And it was still at that point possible to 
transport people on the roads, the highways to get them out at 
that point?
    Mr. Bahamonde. Right, because Monday afternoon there was no 
flooding around the Superdome. This picture was taken on 
Tuesday morning, but even Tuesday morning they continued to 
bring people to the Superdome.
    Senator Dayton. And did anybody discuss at this point the 
fact that they were--so the city officials were actively--
somebody was actively driving people to the Superdome. Was 
there any discussion that they were overloading the Superdome 
and that they ought to go elsewhere?
    Mr. Bahamonde. I wasn't privy to any of that conversation.
    Senator Dayton. Who was having those conversations? You 
have the Federal, State, and local authorities all with some 
shared responsibility for this.
    Mr. Bahamonde. Well, you have to understand, at that time 
all of those decisions were being made by the City of New 
Orleans and I am assuming the State because it was the National 
Guard that was helping to bring people into the Superdome. They 
were actually providing the transportation. I can only assume 
that the city was telling them where to take them. But FEMA at 
that point had no decisionmaking responsibility as to where to 
take these people or where to put them. We weren't in that game 
at that time.
    Senator Dayton. Is that the right locus for that kind of 
decisionmaking authority under those conditions, to have the 
local officials making those kinds of decisions?
    Mr. Bahamonde. It always is. The local government, State 
government is responsible for what happens in their cities 
prior to a hurricane, whether it be evacuation or shelters, 
absolutely.
    Senator Dayton. And post-hurricane, with the city flooded, 
that still is properly the local decision?
    Mr. Bahamonde. All disasters start locally.
    Senator Dayton. And then FEMA's role is to come in and 
whatever that decision is, try to make that decision work, 
carry it out?
    Mr. Bahamonde. We operate under the recommendations that 
come from the city and the State as to what they need, what 
they want, and what their wishes are.
    Senator Dayton. So if a seemingly wrong decision is made or 
is underway, is it FEMA's role somewhere along the line to 
indicate that they think with their expertise that this is a 
mistake or is leading to an undesirable outcome? Or, again, is 
FEMA's role just to carry out and try to make the best of 
whatever situation?
    Mr. Bahamonde. No, I think we actually try to influence 
them on decisions. I mean, we are the ones that do this all the 
time.
    Senator Dayton. Right.
    Mr. Bahamonde. We do it 50, 60, or 70 times a year, so I 
think we do try to provide some management into what they are 
going to do. But you have to understand, the States and the 
cities have their plan, and I think the last thing that we want 
to do is come in there and interrupt their plan because that is 
what they have trained for. But we do try to advise them on 
what to do, yes.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I want 
to add my welcome to Mr. Bahamonde. Hafa Adai.
    Mr. Bahamonde. Hafa Adai. I used to live on Guam, sir, so I 
know what you are talking about.
    Senator Akaka. I appreciate the openness and candor you 
have displayed while working with our Committee over the past 
few weeks. Before I get into my line of questions, I want to 
ask a couple of questions to clarify some of what you have just 
testified to.
    When you briefed FEMA Headquarters on the levee breach at 
11 a.m. Monday--I understood you were there before landfall of 
the hurricane, which was on Sunday, and you witnessed these. 
But at 11 a.m. on Monday morning, there was a breach report. 
Eight hours later, you briefed Under Secretary Brown on the 
levee breach.
    Did it seem that Under Secretary Brown knew about the levee 
breach from his staff by the time you briefed him or was it the 
first time he heard about the broken levees?
    Mr. Bahamonde. I was unable to tell because it really was a 
one-way conversation. I called him, and I did all the talking. 
He didn't ask any questions. All he stated to me when we were 
done was, ``Thanks. I need to call the White House.'' So I was 
unable to determine whether he knew or did not know before 
that.
    Senator Akaka. I understand that you were the first FEMA 
person on the scene there. When did the next FEMA person arrive 
in the area?
    Mr. Bahamonde. The next FEMA asset to arrive was the 
medical team, which arrived at approximately 3 a.m. on Tuesday. 
Under Secretary Brown arrived for his meeting at approximately 
11 o'clock that morning on Tuesday, and the operational team 
that was led by Phil Parr of the ERT team didn't arrive until 
about noon. So Under Secretary Brown was actually there before 
the operational team arrived.
    Senator Akaka. My understanding of FEMA is that FEMA is a 
coordinating agency, as you pointed out, and they work with the 
local and State governments and even with other Federal 
agencies, but primarily as a coordinating agency.
    You spoke much about the Superdome and how atrocious the 
situation became. Who was in charge at the Superdome?
    Mr. Bahamonde. It was the National Guard.
    Senator Akaka. Also, did you notice if the Army Corps of 
Engineers was there?
    Mr. Bahamonde. I didn't. I didn't have any conversations 
with them. It was primarily the National Guard and the mayor.
    Senator Akaka. In your interview with the Committee staff, 
you stated that once you were deployed to New Orleans, it was 
up to you to find a local Emergency Operations Center, EOC, in 
which to ride out the storm. And as you mentioned, I think that 
was set up in Baton Rouge.
    Mr. Bahamonde. No. I set that up.
    Senator Akaka. You did. If I understood your statement 
correctly, FEMA Headquarters gave you a list of EOCs to contact 
once you arrived in New Orleans and left the choice up to you. 
Is that correct?
    Mr. Bahamonde. That is correct.
    Senator Akaka. According to your statement, you took 
shelter in the New Orleans Parish EOC, which happened to be 
located across the street from the Superdome. It is my 
understanding from your statement that you served as a FEMA 
liaison to Mayor Nagin because you were in the right place at 
the right time. However, you were not specifically tasked with 
that role. Is that correct?
    Mr. Bahamonde. No, I was not. When I was sent to--the 
directions that I received from FEMA Headquarters were to go to 
New Orleans, not go to any specific place, not specifically 
talk to anyone. It was just to go to New Orleans.
    Now, my experience in having done this before, I contacted 
David Passey, who is the regional external affairs director in 
Region Six in Texas, and I said you have got to give me some 
names of people I can call where I can ride out the hurricane. 
And my experience is you always ride out a hurricane at an 
Emergency Operations Center. They are the ones that are 
designed to be able to sustain that.
    He gave me a list, and I actually called Jefferson Parish 
first, and they didn't answer their phone. And so my next call 
was to Orleans Parish, and they answered the phone, and I spoke 
to a woman named Sariah, who I think was the deputy director of 
the EOC. We had a short conversation, and she welcomed me to 
come to the EOC. And so I went there with the primary mission 
to just ride out the storm, be in a place where I could gather 
some information, but I was not sent there to be a liaison with 
anyone.
    Senator Akaka. Would it be fair to say that former Under 
Secretary Brown's statement that he sent a FEMA representative 
specifically to Mayor Nagin's office prior to landfall was 
incorrect?
    Mr. Bahamonde. That is true. That is incorrect.
    Senator Akaka. You have stated that you felt your presence 
at the Superdome was critical because FEMA was the sole source 
of food and medical attention for the evacuees, and that you 
strongly objected to the evacuation, as you did say, of FEMA 
staff.
    When you told Under Secretary Brown that FEMA staff were 
evacuating the Superdome, did you voice your concerns to him? 
If so, what was his reaction? Did Under Secretary Brown agree 
that FEMA would lose its visibility of the situation and 
operational control at the Superdome?
    Mr. Bahamonde. No, I didn't specifically tell him my 
opinion that we should stay. I called him, and I said, ``Sir, I 
want you to know that a decision has been made to evacuate us 
from the Superdome because the National Guard has just told us 
that they no longer want to be responsible for our safety, so 
they recommend that we leave.'' And I said, ``And so a decision 
has been made by Phil Parr that we have to get out now.'' And 
his comment was, ``Well, be safe,'' and that was the gist of 
the conversation.
    Senator Akaka. When you met with Secretary Chertoff in 
Baton Rouge, you informed him that you had told Under Secretary 
Brown that the 17th Street Canal levee had broken on Monday, 
August 29, and you received that information about 11 a.m. Was 
he surprised by this information? And did he indicate whether 
Under Secretary Brown had informed him of the levee breach on 
Monday?
    Mr. Bahamonde. He told me when I gave him that 
information--he was very curious, and he said, ``That doesn't 
fit with what I have already been told. I understood that the 
levee didn't break until Tuesday.'' And I said, ``No, sir. I 
informed FEMA Headquarters at 11 a.m. on Monday that it broke, 
and I informed Under Secretary Brown at 7 o'clock that night 
that the levee had broke.'' And he was very curious with the 
information I was giving him because he said a lot of what I 
was telling him just didn't fit with the information that he 
had been provided.
    Senator Akaka. In your past experience doing advance work 
for Under Secretary Brown, were you the only person 
prepositioned at the location of a disaster or were you there 
accompanying an operations team or working with another agency?
    Mr. Bahamonde. In other assignments or in this one in 
particular?
    Senator Akaka. Was there another group there in New 
Orleans?
    Mr. Bahamonde. No. I was the only one in New Orleans.
    Senator Akaka. You stated in the Committee interview that a 
FEMA medical response team from Oklahoma arrived at the 
Superdome at 3 a.m. on Tuesday morning, and it was the first 
team to arrive on the scene. According to your statement, that 
team left the Superdome later that day when another medical 
response team from New Mexico arrived.
    Do you know why the Oklahoma team left only hours after 
they had arrived?
    Mr. Bahamonde. I do not know that.
    Senator Akaka. You mentioned that FEMA likes to surround 
the perimeter of a disaster and preposition people and supplies 
to go in after the storm passes. Could FEMA have tightened the 
perimeter? In other words, could they have been closer in the 
center of the disaster so they could have deployed more 
promptly?
    Mr. Bahamonde. The closest medical team at the time was in 
Houston, which is about an 8-hour drive, I am estimating, a 6- 
to 8-hour drive. But I do know that there were members that 
were staged as close as Baton Rouge, which is only an hour and 
a half away. But I don't know what the decision was. I didn't 
make the decision or have any information as to why they were 
prepositioned all the way in Houston.
    Senator Akaka. Under Secretary Brown said that Mayor Nagin 
handed him a list of New Orleans' needs during their initial 
meeting and did not discuss the list at the meeting. However, 
you stated that Mayor Nagin verbally shared the list with the 
Under Secretary.
    Can you share what was on Mayor Nagin's list, to the best 
of your recollection?
    Mr. Bahamonde. I don't recall because when that meeting 
took place, I certainly wasn't part of the meeting. I didn't 
sit down and participate in it. There were a lot of things that 
I was trying to do, working with the Coast Guard and working 
with helicopters to try to get supplies in. So my modus 
operandi was not to be a part of that meeting but was to 
continue the work that I was there for.
    Senator Akaka. Under Secretary Brown testified that the 
person he sent down to New Orleans, which was you, had 
comparable qualifications to a Federal coordinating official. 
Do you feel you have the same operational background and 
qualifications as a Federal coordinating official?
    Mr. Bahamonde. No. I certainly don't have the training. I 
haven't been through the courses. But I have field experience 
over 12 years, which I certainly know what I am doing out on a 
disaster, and I certainly know how they work.
    Senator Akaka. Under Secretary Brown stated in his 
testimony before the House that over the last few years FEMA 
had lost a substantial number of its career staff and that its 
budget had been raided to fund other programs in DHS. As a 
long-time employee, do you share that view? And if so, do you 
have any insights as to which programs have suffered?
    Mr. Bahamonde. Well, I certainly know the staff that has 
left, the institutional knowledge that has left, has really 
hampered the agency because there were career employees there 
who have done this for 10, 15, 20 years that have seen a lot of 
disasters that are now gone, replaced by others who don't have 
emergency management experience and really don't have the 
experiences.
    So within FEMA, it is well known and difficult to know that 
the institutional knowledge was either forced or chose to leave 
on their own out of the agency, and I think it has hampered us 
in very significant ways.
    Senator Akaka. You have provided a summary of events that 
largely focuses on interaction between FEMA and the local 
government. Can you share with us what interaction, if any, you 
observed between the State and local governments and what 
interaction you had with the State Government?
    Mr. Bahamonde. I didn't really have any contact with the 
State Government when I arrived in New Orleans other than the 
National Guard, who was directed there by the State. I did 
attend some--there were some calls that were taking place in 
the New Orleans EOC that linked in both the State and FEMA and 
other agencies just to provide an update as to what was going 
on. So I do know that those existed, but I didn't have any 
direct contact with anybody in the State about any plans or 
operations that they were involved in.
    Senator Akaka. Well, Mr. Bahamonde, I really appreciate 
your responses and wish you well. Hafa Adai. Thank you.
    Chairman Collins. Thank you, Senator. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    I want to thank you for your candor and your transparency. 
I know that you have been asked lots of questions about this, 
and I just really appreciate the time and the detail you are 
giving us here.
    Let me say that my questions are going to be a little bit 
of a scattershot because I am following up on a lot of my 
colleagues' questions here. But just by way of background, in 
your opening statement you said you have been with FEMA for 12 
years?
    Mr. Bahamonde. That is correct.
    Senator Pryor. But full-time since 2002.
    Mr. Bahamonde. That is correct.
    Senator Pryor. How does that work? You were part-time 
before or called in as needed or what?
    Mr. Bahamonde. FEMA has a disaster assistance employee 
cadre of thousands of people that are not full-time employees, 
that really only deploy during a time of a disaster or when 
other special assignments are required. I think that is the 
most unique and special aspect of FEMA, that we have people 
throughout the country that in their normal lives are wives, 
husbands, self-employed, work at a bank, or work at a hospital. 
But when a disaster is called, they drop everything and 
respond. And that is what I was for the first 8 years.
    Senator Pryor. So for those 8 years, what did you do in 
your normal life?
    Mr. Bahamonde. I went back to school. I got a master's 
degree and pursued other opportunities.
    Senator Pryor. OK. So how many FEMA Directors did you serve 
under then?
    Mr. Bahamonde. I have served under three.
    Senator Pryor. OK.
    Mr. Bahamonde. Four now with Chief Paulison.
    Senator Pryor. OK. So those would include James Lee Witt--
--
    Mr. Bahamonde. Correct.
    Senator Pryor. To start with, I guess you started in James 
Lee Witt's FEMA.
    Mr. Bahamonde. Correct.
    Senator Pryor. I want to ask you about the changes you have 
seen in FEMA over time, over those 12 years. Could you describe 
in general terms some of those changes?
    Mr. Bahamonde. I think in my early years, certainly during 
the 1990s, there were a lot of very proactive programs that 
were put in place. James Lee Witt was very instrumental in what 
I would say is thinking out of the box. Project Impact was a 
program that was started in the late 1990s, which was really 
designed to bring in corporations, get States and local 
governments involved. And it was just developing to be a very 
important and significant role in emergency management. When 
the administration changed, that was one of the very first 
programs that was cut and disbanded. And I know that a lot of 
employees in FEMA were dismayed to think that we were going in 
a different direction that didn't seem to be as forward 
thinking as we had just come from. And I know that agency-wide, 
speaking to employees, that was a significant moment that said 
that there were changes ahead.
    Senator Pryor. Tell me a little bit about Project Impact.
    Mr. Bahamonde. I don't have a whole lot of experience with 
Project Impact, but I know that it was an effort to get 
corporations involved in working with local communities, 
working with State communities, to develop a well-rounded 
emergency management plan in and amongst those communities. So 
you get a major corporation to work within their community to 
develop emergency plans and a structure and use corporate money 
to help fund that. And it really brought in more than just the 
Federal Government. It brought in industry, private companies, 
and was really, what I envision, a ground-breaking moment to 
make everyone in this country involved in emergency management, 
not just government.
    Senator Pryor. And is it fair to say that some of your 
colleagues at FEMA were disappointed that Project Impact was 
cut?
    Mr. Bahamonde. Oh, absolutely.
    Senator Pryor. And is it fair to say that some of your 
colleagues there felt it was a mistake to cut it?
    Mr. Bahamonde. Absolutely.
    Senator Pryor. And do you share those views?
    Mr. Bahamonde. Absolutely.
    Senator Pryor. And what about the morale at the agency? 
Quite frankly, here in the Senate, we hear sometimes about 
morale in various agencies, and we have heard some things about 
FEMA's morale. But I would like your thoughts on that if you 
could talk about it in general terms, please.
    Mr. Bahamonde. I think if you go back to the end of the 
James Lee Witt administration, FEMA was described as the model 
agency in the Federal Government. There was tremendous pride in 
the agency. We wore our shirts, we wore our hats, we wore our 
jackets with pride because we knew that we were efficient, we 
did good work, and we made a difference in the lives of 
Americans.
    Right now there is not very good morale in the agency, as 
things have been cut, programs that people had dedicated their 
lives to work on were all of a sudden gone. Staff has left. 
People that you could count on and turn to have gone. Training 
was virtually eliminated for some time period. And I think 
there was a general feeling that where the agency came from 
after Hurricane Andrew and the problems that the agency 
experienced then to rise to the top of the mountain and be 
proud of what you did, to where we stand today, I think it--you 
can't help but not have bad morale.
    Senator Pryor. Thank you for that candor, again. Now, as I 
understand it, you were working in External Affairs?
    Mr. Bahamonde. Correct.
    Senator Pryor. Could you describe the activities in 
External Affairs?
    Mr. Bahamonde. External Affairs has five components: Public 
affairs, congressional affairs--I am proud to say Senator 
Lieberman and Senator Collins are two of the Senators that I am 
responsible for in New England--international affairs, 
community relations, and State and local government.
    Senator Pryor. OK. Let me ask about the standard operating 
procedure at FEMA in relation to an expected hurricane. Is it 
standard operating procedure there to send one External Affairs 
person to a major city, in this case New Orleans? It seems to 
me that maybe there ought to be more of a team approach, but 
tell me how that should work and how that does work.
    Mr. Bahamonde. There is an emergency response team that in 
this instance was deployed to Baton Rouge which did contain an 
External Affairs person with it as well as an operational 
person, a logistical person, and everything. But they were 
never sent to New Orleans. They were sent to coordinate out of 
Baton Rouge.
    Senator Pryor. Now, standard operating procedure, should 
they have been sent to New Orleans or was it the right call to 
send them to Baton Rouge?
    Mr. Bahamonde. It is standing policy of FEMA not to put 
employees into harm's way, and that is why they were based in 
Baton Rouge and not in New Orleans.
    Senator Pryor. Unless you are a lone External Affairs guy, 
right?
    Mr. Bahamonde. I guess so. [Laughter.]
    Senator Pryor. OK. But, is it standard operating procedure 
to send one person down into harm's way?
    Mr. Bahamonde. No.
    Senator Pryor. OK. So why did you get sent down there?
    Mr. Bahamonde. Because I think I have a long history with 
Under Secretary Brown. I believe I have his trust. I believe 
that he--I can confide in him and speak very frank to him, and 
he can communicate with me and know that he is going to get the 
straight story. So sending me to an area where I think he needs 
to know that he has a person there that he has the full trust 
and is confident in is the reason why I was being sent to these 
locations to provide that information.
    Senator Pryor. OK. It sounds as if you were being sent 
there maybe as eyes and ears, but you did not have a lot of 
authority within FEMA to direct resources?
    Mr. Bahamonde. I was sent there as eyes and ears to develop 
an advance in the event that he--which was already planned--was 
going to visit New Orleans. Typically a storm hits somewhere, 
he comes in. They need to know where to go, what they are going 
to see, where a helicopter can land.
    I know most of you are familiar with what kind of advance 
work takes place when VIPs make visits. That was my 
responsibility. But when I got down there, I realized that 
there was a desperate need for another operation, which I felt 
comfortable at some levels overtaking, speaking with the mayor, 
confiding in him as to what was going on, getting information, 
passing that up. I have done that in numerous disasters before 
and certainly felt comfortable in that situation, but that is 
not what my purpose was.
    Senator Pryor. It sounded to me like you provided a vital 
link and also some vital expertise there on the ground that was 
just desperately needed. Is that fair to say?
    Mr. Bahamonde. Yes.
    Senator Pryor. And I could have a lot of follow-up 
questions on that, but let me change gears, if I may, just for 
one moment. You talked about the Superdome, and there has been 
a lot of focus on the Superdome, understandably. As I 
understand it, there always existed, even at the height of the 
flooding in New Orleans, there always existed roads in and out 
of the city, including in and out of the Superdome, that could 
have gotten supplies in and people out. Is that true?
    Mr. Bahamonde. There were access points that you could get 
into. Certainly if you weren't familiar with the city and you 
weren't escorted by city police, you would have no way of 
knowing how to get that because it was a very circuitous route 
that took you over several bridges and around back roads and 
back in. And that was really the only route in and out of the 
city.
    Senator Pryor. But helicopters could have helped determine 
that as well, right? Helicopters could have provided the road 
map because they could have seen what was available.
    Mr. Bahamonde. Absolutely.
    Senator Pryor. And how much time did you personally spend 
in and around the Superdome?
    Mr. Bahamonde. Well, I spent most of Sunday afternoon and 
Sunday evening at the Superdome, and then I returned to the 
Superdome Monday evening for the helicopter tours and all that 
stuff. And then beginning Tuesday morning, I never left the 
Superdome for any significant amount of time until I left on 
Thursday.
    Senator Pryor. So you overnighted there?
    Mr. Bahamonde. I slept with everyone else there.
    Senator Pryor. OK. For, what, two nights?
    Mr. Bahamonde. Two nights.
    Senator Pryor. We have, again, been focusing on the 
Superdome. But also there was a whole scene going on at the 
Convention Center as well. Did you ever go to the Convention 
Center?
    Mr. Bahamonde. No, I did not.
    Senator Pryor. Did you know what was going on in the 
Convention Center?
    Mr. Bahamonde. Yes, to some extent on Wednesday morning, 
and the mayor had been saying as early as Sunday he was very 
concerned what was going to happen to 30,000 tourists that were 
in the city. He reiterated that again on Tuesday, and on 
Wednesday he reiterated again that hotels were starting to kick 
people out of their hotels. They no longer had food themselves. 
They didn't have power, they didn't have an infrastructure in 
place for the hotels to house these people. So they started 
moving them out into the streets. And so I sent an E-mail out 
on Wednesday morning explaining what that situation was and how 
it was developing.
    Senator Pryor. And were you getting reports from the 
Convention Center?
    Mr. Bahamonde. No. I was getting reports from the mayor's 
staff.
    Senator Pryor. OK. Now, again, to change gears here just a 
moment, one of the fundamental questions I think you brought up 
in your opening statement was whether FEMA should fundamentally 
be a response organization or be a recovery organization.
    Mr. Bahamonde. Response is--we are not a response agency in 
the respect that we don't have the infrastructure that the 
military has, we don't have the helicopters, we don't have some 
of the trucks and stuff like that. We respond with personnel, 
we respond with communications equipment, and we respond with 
logistics. But we are not a first responder in a local 
community during a crisis.
    Senator Pryor. OK. Should you be?
    Mr. Bahamonde. That is not how we are designed, but 
certainly with more assets and a lot more tools at our 
disposal, I think that would be left up to Congress to decide 
if they want that to happen or not.
    Senator Pryor. I am going to change gears on you again. One 
thing you mentioned in responding to questions a few moments 
ago is unreliable information coming from FEMA. Were you 
receiving any reliable information from FEMA?
    Mr. Bahamonde. Could you clarify that? What do you mean 
``unreliable information''?
    Mr. Bahamonde. Apparently at one point you were told that 
trucks were coming with X number of MREs, and it was 
significantly less than that. Was that information coming from 
FEMA, or who was that coming from?
    Mr. Bahamonde. The information on the food, the MREs, that 
was coming from the National Guard. The information that I was 
getting from FEMA was specifically about the medical team, 
where they were, how far they were out, if they were going to 
arrive. That is the first information that I received there. So 
it was accurate information because it was happening. They just 
never got there.
    Senator Pryor. In Arkansas, we took in a lot of people from 
Louisiana and Mississippi and a few from Alabama, and we found 
that the information we were receiving from FEMA was very 
unreliable, about how many were coming, when they would arrive, 
what their condition was. And then there were reports here 
yesterday and the day before about an ice truck coming out of 
the Northeast and heading south and then ending back up in 
Massachusetts. It just appears to us that communication within 
FEMA at a very critical time was lacking. Was that your 
experience?
    Mr. Bahamonde. I don't think anybody is going to dispute 
that once commodities and things are left for others to 
deposit, we a lot of times lose visual sight as to where they 
are and where they are going and if they even get there. We can 
put the ice and the water and the food on a truck. Sometimes we 
don't always know when it is going to arrive and where it is 
going to arrive.
    Senator Pryor. The last thing I had is you mentioned that 
you did some media interviews.
    Mr. Bahamonde. Correct.
    Senator Pryor. What was your message? Was this before or 
after the storm?
    Mr. Bahamonde. It was before the storm.
    Senator Pryor. What was your message?
    Mr. Bahamonde. Well, it was just basically to talk about 
where our commodities were, where we had stationed our assets. 
I talked about the perimeter, that we had put a perimeter 
really around the Gulf Coast, both in Florida, Alabama, and 
Mississippi, Louisiana and Texas, so that depending upon when 
the storm hit, we could move in any direction.
    As it turned out, the problem with that plan was the only 
direction we could move in was from the west, so any assets 
over on the east side I assume went to Mississippi, which I was 
not familiar with. But it was just generally that conversation, 
conversation about whether FEMA was more worried about 
terrorism and less worried about natural disasters. I remember 
specifically commenting on that. But it was just a general, 3- 
or 4-minute interview.
    Senator Pryor. Thank you.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thanks very much, Madam Chairman.
    Mr. Bahamonde, when I think of the role you played, it 
takes me back a little bit in history when someone hollered, 
``The British are coming, the British are coming,'' and you 
were hollering, ``The waters are coming, the waters are 
coming.'' And I give you the mantle of a modern-day Paul 
Revere. I think what you did was heroic, and we are grateful to 
you for your persistence in trying to get your message across.
    Mr. Bahamonde. Thank you.
    Senator Lautenberg. Some of the things that are so 
perplexing are when did the information come to the White 
House. I mean, did it come to the White House later than these 
photos? They are hard to see from here, but this is Monday 
afternoon, August 29, there are two people swimming. And I 
remember this one, taken from television, of people walking 
with bundles on their heads, some of them with children on 
their shoulders, because the water was chest-high and they were 
afraid of what might happen. And we know that on occasion 
terrible things did happen and children slipped out of the 
hands of their parents.
    So here these pictures are being presented to the public at 
large--to the world at large, as a matter of fact, and it 
sounds like someone at the White House may have been scratching 
their head and saying, well, how important is this?
    I ask if you have any idea when the White House might have 
heard from Mr. Brown or perhaps from Secretary Chertoff. Do you 
know when the President might have gotten notice that the 
situation was so desperate?
    Mr. Bahamonde. I don't. All I know is when I spoke to Under 
Secretary Brown at approximately 7 o'clock on Monday evening, 
the only thing he said to me was, ``Thank you. I am now going 
to call the White House.''
    Senator Lautenberg. That was Monday night?
    Mr. Bahamonde. Correct.
    Senator Lautenberg. About what time?
    Mr. Bahamonde. Around 7 o'clock.
    Senator Lautenberg. I can't imagine what would have 
happened if we had a few thousand of our troops encircled by 
enemy forces someplace in the world, whether or not the 
President might have continued his vacation, as he did--and I 
am not asking for your opinion; I am making a statement--
whether or not he would continue with his vacation plans, not 
feeling the urgency to get to the situation room at the White 
House, to say the least, and give some direction to this. I 
mean, how could anybody look at these pictures and not be so 
motivated to run and--to use an analogy--grab the fire 
extinguisher and go do something about it?
    So it is a tragedy that occurred, and we know that 
``Brownie'' didn't deserve a pat on the back; he deserved a 
kick. You described what you were told by Mr. Brown, ``to get 
your ass back into New Orleans.'' So the ineptitude was 
obvious. Why he still represents the fall guy in this thing--he 
was bad, got fired, he still continued to get paid for a while, 
and I think got another assignment. But to suggest that he 
alone should have taken the blame for all the failures that we 
saw--and, believe me, there was heroism throughout from 
ordinary citizens, from your colleagues at FEMA, from the Coast 
Guard.
    When I saw the Coast Guard--and I am a fan of the Coast 
Guard and always have been. I remember the picture so vividly 
with the guy being pulled up on a rope line or whatever line 
they used to get him off the roof. And why aren't the fingers 
being pointed with the same aggression, with the same anger, 
with the same rage, the fact that on Tuesday--Tuesday--when 
this thing was practically at its height, the President was in 
California with a guitar in his hand celebrating an occasion? 
No one will ever understand why that White House wasn't 
surrounded by black cloth and saying, hey, let's get on with 
this, let's do whatever America can do. It has not happened.
    What was the level of experience of your colleagues, senior 
management positions? In a generalization, were they people who 
were well trained for this kind of thing? Because you were 
there as a professional, and I want to understand something. To 
an earlier question, you responded that you were part of the 
Department of Public Information. But yet you had been through 
these other very serious hurricanes. What was your job at those 
moments?
    Mr. Bahamonde. Well, in some of the other hurricanes, I did 
typical advance work. I certainly worked with Under Secretary 
Brown at the time, did advance work with Secretary Ridge, and I 
have worked on several occasions with the White House's advance 
team.
    But my primary responsibility is public affairs, external 
affairs.
    Senator Lautenberg. Were you doing that in New Orleans on 
August 29?
    Mr. Bahamonde. Doing what?
    Senator Lautenberg. Public affairs?
    Mr. Bahamonde. I was because I did some media interviews.
    Senator Lautenberg. But the calls, some of them of a 
relatively frantic nature in terms of your appeal for food, for 
oxygen----
    Mr. Bahamonde. Just because I am a public affairs person--
--
    Senator Lautenberg. Wasn't that kind of an operational 
assignment?
    Mr. Bahamonde. Well, I cannot just sit and stand by and see 
what is happening and not let somebody know. If you stay in 
your box, people would die. And so I have been on a lot of 
disasters. I see what happens. And I took it upon myself to let 
everybody that I could possibly know what the situation was so 
that they would be able to make informed decisions on what to 
do next.
    Senator Lautenberg. Didn't you adopt the position of 
communications director effectively on August 29?
    Mr. Bahamonde. I wouldn't say communications director. I 
would say I was all you had----
    Senator Lautenberg. Was there anybody else----
    Mr. Bahamonde [continuing]. And you should listen.
    Senator Lautenberg. Anybody else? You weren't called out of 
a bull pen to do this. I mean, you were there. Was there anyone 
else from FEMA in New Orleans on that Sunday?
    Mr. Bahamonde. No.
    Senator Lautenberg. Monday?
    Mr. Bahamonde. No.
    Senator Lautenberg. You took on enormous responsibility, 
and it goes beyond public affairs. You were the chief life 
guard, and it is a big job. We are grateful to you.
    Thursday morning, September 1, President Bush stated on 
``Good Morning America,'' ``I don't think anyone anticipated 
the breach of the levees.'' Is there anything that you saw in 
documents, reviews of the strength of the levees while at FEMA 
in advance of this where people were aware of the fact that 
levees might be in a less perfect condition than they should be 
to withstand a heavy rush of water like that, which finally 
evolved?
    Mr. Bahamonde. Well, I don't have any personal knowledge of 
the strength and the knowledge of the levees. I do know that 
FEMA has worked with the State and the city for that 
inevitability. We had done extensive training for that fact.
    Senator Lautenberg. So information was exchanged about----
    Mr. Bahamonde. The worst-case scenario, as long as I have 
been in the agency, was a levee break to flood the City of New 
Orleans. So the possibility----
    Senator Lautenberg. How long ago would you say that data 
came to you, how long ago?
    Mr. Bahamonde. Almost as long as I have been in the agency.
    Senator Lautenberg. You are there 12 years?
    Mr. Bahamonde. Yes.
    Senator Lautenberg. It is too bad that President Bush 
didn't think that anyone anticipated the breach of the levees 
because it sounds like a certain detachment that I think is 
appropriate for a commander in chief. I remember when the 
President flew over on Wednesday and thought that it was a 
devastating sight. And I compared it to the unacceptable 
behavior of wearing white shoes after Labor Day. It was a 
casual reference to what a devastating picture.
    Anyway, I think that you have done a service for your 
country that equals many of the moments of greatness, and we 
thank you for it.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Senator Carper, you have been extraordinarily patient all 
morning to get your questions in. It is my understanding, 
however, that our witness needs a short break, and I wonder if 
you would be amenable to a 5-minute break before we proceed 
with your questions?
    Senator Carper. Given all that he has been through, he can 
take 10 minutes. [Laughter.]
    Mr. Bahamonde. Thank you, Senator.
    Chairman Collins. We will stand in recess for 5 minutes.
    Mr. Bahamonde. Thank you.
    [Recess.]
    Chairman Collins. The Committee will come to order.
    We will now resume questioning with the ever patient 
Senator from Delaware, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Well, Mr. Bahamonde, I would like to say we 
have saved the best for last, but my colleagues would say that 
is not the case.
    I want to echo the sentiments of others who have expressed 
our thanks for your service, your remarkable service, and not 
just in this instance but obviously with others.
    Coming last, this has some advantages, and one of the 
advantages is having listened to all the other questions and to 
have the opportunity to listen to your responses to them. And I 
think I would like to use part of this time, at least 
initially, to take advantage of hindsight. We always say 
hindsight is 20/20. Mine is--I am much better at hindsight than 
I am in looking ahead. I expect that is true for most of us.
    Before I ask a question along those lines, I want to first 
ask, if you will, what are some of the principal or primary 
lessons that you would have us as Members of this Committee, as 
Members of the Senate, take away from this hearing and from 
your testimony?
    Mr. Bahamonde. I would certainly ask you to look at where 
emergency management is at this time, what you expect the true 
role of FEMA to be, because I think at some point certainly the 
employees have gone through the last couple of years uncertain 
themselves as to what our true role is. There has been a lot of 
focus on terrorism, and that is expected. But we know within 
the agency we do 50, 60 natural disasters a year. We certainly 
need to be upgraded and brought into the 21st Century and the 
technology that we have, how we do communications, how we 
deploy teams. But I think what you need to do is to define what 
you want the role of FEMA to be, where you want it to be, how 
you want it to operate, what command you want it to have. And 
once that is defined, then I think FEMA has a tremendous amount 
of assets staff-wise, career people, who desperately want your 
guidance and desperately want to get back to the job that they 
know how to do and have proven in the past to be very 
successful and just want to go back home, so to speak.
    Senator Carper. When you think of the assets that FEMA 
brings to a disaster like this, what are the major assets?
    Mr. Bahamonde. Communications is something that we bring a 
lot to. But I think one thing that was obvious to me at the 
Superdome is all of our communications is on a truck or in some 
sort of camper. I would have certainly loved to have a little 
briefcase that the National Guard had that you can pop up a 
satellite dish and throw open a phone and automatically have 
communication. We didn't have any of that in the Superdome. We 
were communications dead. We begged and borrowed and pleaded 
with the National Guard to let us use their communications, 
because we didn't have any. And I kept standing there looking 
at their little satellite dish that they just deployed and 
thought, Wow, that would be cool to have.
    So I think it is those kind of assets that, as we look into 
the future on how we are going to have to respond, both in a 
natural disaster and a terrorist event, you have to do it 
immediately, and you have to have the tools in which you allow 
the employees to do the work that they are trained to do.
    Senator Carper. Going back to what I said earlier about 
hindsight being 20/20, knowing what we know now, what could we 
have done, should we have done differently in preparing for 
this disaster, which was well telegraphed, and responding to 
it?
    Mr. Bahamonde. Yes, and I think what we saw----
    Senator Carper. That is a pretty big question. I just want 
you to think about it and just try to tell us what could we 
have done differently in preparing for this disaster and in 
responding to it? And not just with a focus on FEMA, but you 
had the opportunity to observe other agencies, certainly the 
Coast Guard, the Corps of Engineers, to observe the National 
Guard, to observe the response of State and local people. But 
what could we collectively have done differently and should 
have done differently in preparing for this disaster and 
responding to it?
    Mr. Bahamonde. I will go to money because I think when this 
disaster is all said and done, there is talk that it is going 
to cost $200 billion to recover from this disaster, and I would 
just like to think if we just had a couple of billion dollars 
to put some of the plans, some of the equipment, some of the 
preparation, strengthening the levees certainly around the city 
that you have known for as long as it has existed it is 
underwater, put plans into evacuation. We saw what evacuation 
did in Hurricane Rita in getting people out of harm's way.
    If we had had that in New Orleans, we wouldn't be here 
today.
    Senator Carper. Anything you want to add to that?
    Mr. Bahamonde. I can talk a lot, but----
    Senator Carper. I have 9 minutes. [Laughter.]
    Mr. Bahamonde. There are just a lot of things there--but I 
will leave it at that.
    Senator Carper. All right. You mentioned communications, 
and we have had a fair amount of discussion within this 
Committee and in the Senate itself on communications 
breakdowns. I am an old governor, and we had invested a lot of 
our own resources, Delaware State resources, in 800 megahertz 
communications systems that are interoperable and allow all of 
our first responders--police, fire, paramedics, National Guard, 
and others, DEMA personnel--to be able to communicate, pretty 
much from one end of the State to the other.
    In terms of communications, this is the first that I 
personally heard someone talk about the kind of technology that 
the National Guard was able to deploy and the advantage that it 
gave them.
    Do you have any further thoughts with respect to 
communications that go beyond just FEMA and their 
communications capabilities, or lack thereof?
    Mr. Bahamonde. Well, certainly, when the City of New 
Orleans went down, they lost all their communications. So I 
think you have to look at it from a wide-ranging aspect. Are 
our cities in a position to communicate when a disaster hits? 
We have the fortune, in the nature of a hurricane, to know what 
is going to happen. But in the event of a terrorist attack, do 
we have the infrastructure, do we have the capability--and I 
can't believe in the 21st Century that the technology doesn't 
exist that we can't acquire that.
    As you know, once communications go down, there is a 
cascading effect where everything else goes down. And I think 
we had that problem in New Orleans, and I think we paid the 
price for it.
    Senator Carper. If the levees had held, if the flood walls 
had not been breached, would we be here today?
    Mr. Bahamonde. Oh, absolutely. I think there were still 
thousands of people in the city. There was a Catagory 5 
hurricane coming. There was a lot of damage. It wasn't just 
caused by water. But it certainly played a significant role.
    But, yes, anytime you have a Catagory 5 hurricane--and I 
certainly hope in the future that nobody ever stays around to 
witness one, and I think we learned that lesson, and hopefully 
with Hurricane Wilma out there, we will continue to learn that 
lesson.
    Senator Carper. You have had an opportunity to be involved 
up close and personal with any number of natural disasters, I 
sense--hurricanes----
    Mr. Bahamonde. Yes.
    Senator Carper. Could you just compare and contrast for us 
the response of the State and local folks, including the Guard, 
local police, local officials, State officials, their response, 
the effectiveness of their response to that you have observed 
in other instances?
    Mr. Bahamonde. Certainly there's different levels of 
response, but I think the critical aspect is you have to have a 
plan, you have to know your plan, and you have to have the 
ability to carry out your plan. It is impossible to develop a 
plan and try to implement the plan when it is most critical to 
carry out that plan. And some cities and some States do a 
phenomenal job because they have invested the time, the energy, 
and the money to do it. Other States and local governments 
haven't, for whatever reason. But I know the Department of 
Homeland Security has spent billions of dollars over the last 
several years trying to arm first responders, trying to arm 
local communities, emergency management groups with money to 
buy technology resources and do it. And it really comes to the 
responsibility of local officials and State officials to take 
that money and use it as it is designed, to create the plans 
and put in place the implementation, whether it be resources or 
staff, to carry those out. And until we actually come to that 
realization, we may be faced with more situations like this.
    Senator Carper. Talk with us here, if you will, about the 
specific role that the National Guard played. My understanding 
is that FEMA usually does not preposition assets in harm's way, 
instead showing up shortly after the storm or whatever the 
natural disaster is, once the worst has passed. Talk with us 
about the role of the National Guard, and particularly with 
respect to this storm. When they showed up, when they were 
called up, were the numbers of men and women adequate? Were 
they prepared for what faced them?
    Mr. Bahamonde. I thought the National Guard at the 
Superdome did a fabulous job. They made sure that everybody who 
went into the Superdome was inspected so that it was a safe 
environment. They made sure there weren't weapons or drugs or 
paraphernalia. They hand-inspected everything that people 
brought in there to create a safe environment. They were there 
before, they were there during. They did yeoman's work. They 
had communications. And it still amazes me today that you put 
25,000 people into the Superdome under the conditions that they 
were living under, and that there was relatively few incidents 
of the crowd getting unruly, and I credit that to the National 
Guard. I think they had a firm grip on what was going on there, 
and I commend them for the work they did at the Superdome.
    Senator Carper. Thank you.
    Share your thoughts with us, looking ahead, about whether 
or not we ought to try to rebuild New Orleans. To what extent 
should we go forward and in some areas maybe hold back? What is 
an appropriate Federal role in your judgment?
    Mr. Bahamonde. That is not for me to say. That is not my 
position.
    Senator Carper. OK. I want to come back to some more 
specific questions, if I could. We talked earlier when my 
colleagues asked you about food and water, particularly that 
was provided to folks in the Superdome. Let me just ask, the 
food and water that folks were able to find for Superdome 
evacuees, any idea where it came from?
    Mr. Bahamonde. FEMA had prepositioned some of it, and then 
when they had an opportunity, drove it into the theater of New 
Orleans so that it was easier accessed, if need be.
    Senator Carper. OK. At any time during your stay in the 
Superdome--what were you, 2 or 3 days? Did you say 2 days?
    Mr. Bahamonde. At the Superdome?
    Senator Carper. Yes.
    Mr. Bahamonde. Where I physically stayed?
    Senator Carper. Yes.
    Mr. Bahamonde. Yes, from Tuesday morning until Thursday.
    Senator Carper. Were you aware of any FEMA employees who 
were working as you were to get food or water or more supplies 
to the Convention Center--to either the Superdome or the 
Convention Center?
    Mr. Bahamonde. Absolutely. I know of one incident where a 
FEMA employee went above and beyond the call of duty to make 
sure that food got to that Superdome, and he did it in the dark 
of night, almost by himself. And so he is--he did a great job.
    Senator Carper. OK. Senator Akaka had some questions about 
a medical team. I think there were two medical teams--one from 
Oklahoma and maybe one from New Mexico. As I recall, one was 
deployed, showed up, and then another one came along. Was it 
the Oklahoma medical team that was pulled out?
    Mr. Bahamonde. That was my understanding, but I am not----
    Senator Carper. Any idea where they were sent to?
    Mr. Bahamonde. I really don't know specifically where that 
team was sent to. I know other medical teams were stationed 
primarily out at New Orleans airport to set up a base there.
    Senator Carper. OK. I want to go back to the first question 
that I asked and just revisit that since my time is about to 
expire. If you were in our shoes, not your shoes, but if you 
were in our shoes, just delineate again for me and for my 
colleagues what are the next several things that you would do 
to reduce the likelihood that this kind of--I am tempted to 
call it a tragedy, to reduce the likelihood that this is going 
to happen again.
    Mr. Bahamonde. And I would go back to you. If the Federal 
Emergency Management Agency is the Federal Government's 
overseeing body to natural disasters and terrorism, you need to 
define what their role is. They were placed under the 
Department of Homeland Security, and they are playing a role 
there. But it played a much different role in many respects 
outside of the agency. And speaking from just an employee 
perspective, I just want--it would be helpful to know what you 
want us to do, where you want us to go, and what our future is 
so that--because right now there are a lot of employees who are 
debating whether to stay or not because the future is cloudy 
and they are not sure if they want to commit to that anymore.
    Senator Carper. Thank you. Thank you again for your 
testimony here and thank you for your remarkable service to our 
country and to the people of New Orleans.
    I would just say to my colleagues, one of the thoughts that 
comes to mind, during our short recess a few minutes ago, I 
discussed this with Senator Lieberman. We have responsibilities 
in this, too. You know, we decide whether or not FEMA is going 
to be part of Homeland Security or not. We decide with the rest 
of our colleagues the level of funding that is appropriate and 
some idea what their mission is to be.
    We also have some say in who we confirm to provide 
leadership for FEMA and for other organizations. And I am 
struck as we consider the role that FEMA played in Louisiana 
and the reviews, not very good reviews they have gotten for the 
most part, compared to the role that the Coast Guard played and 
have gotten just remarkably excellent reviews.
    But as one Member of this Committee, I am going to be 
taking a lot more seriously my responsibilities not just for 
oversight, but my responsibilities to look carefully at the 
credentials and qualifications of those that are nominated to 
serve in these senior leadership positions to make sure that 
they bring to the job the skills that are needed. Thank you 
very much.
    Chairman Collins. Thank you.
    Mr. Bahamonde, the end is almost in sight. I am sure you 
are happy to hear that, but you really have been 
extraordinarily valuable in enhancing our understanding this 
morning.
    Usually your E-mails and phone calls from New Orleans went 
to officials at FEMA other than Michael Brown, the Director. 
But you did actually call Mr. Brown and direct some E-mails 
personally to him. I assume that was because you wanted to make 
sure that he personally was aware of how dire the situation was 
in New Orleans. Is that correct?
    Mr. Bahamonde. That is correct.
    Chairman Collins. Now, Senator Warner brought up the issue 
that you informed Mr. Brown but that you did not specifically 
ask him to take certain steps or to send in more help or to 
provide additional supplies. And just for the record, I want to 
clarify that issue.
    Did you not ask or make specific requests of him because 
you felt that the information you were providing was sufficient 
to trigger those kinds of actions?
    Mr. Bahamonde. Absolutely. I was not in the position to 
make the demands or the commands. I was in a position to 
provide information. But I did say, ``Sir, we need food at the 
Superdome. We need water at the Superdome. We need medical 
teams at the Superdome.'' I did say that.
    Chairman Collins. And to me that should have been more than 
sufficient to trigger an urgent and more effective response, 
but I did want to just clarify that point for the record.
    The last issue--because I see a roll call vote has just 
started--that I want to cover with you has to do with Secretary 
Chertoff's proposals to change what I would call the eyes and 
ears function that you performed in New Orleans with respect to 
future disasters. Yesterday he testified before the House that 
he intended to put emergency response teams on the ground to 
provide real-time information to headquarters and to improve 
situational awareness in the field. That is the kind of role 
that you were playing on the ground in New Orleans, correct?
    Mr. Bahamonde. It turned out to be, yes.
    Chairman Collins. What do you think of his proposal to 
preposition emergency response teams to take over that eyes and 
ears role that you played?
    Mr. Bahamonde. I think it is critical. I think you need 
that. I think you have to be there. But if you don't take and 
use the information you are provided with, it means nothing.
    Chairman Collins. That is an excellent point, and I think 
that is one of the lessons from this hearing.
    Finally, have you gotten any feedback from FEMA or DHS as 
to the role you performed? Have you participated in any after-
action review of what went wrong and what went right with 
FEMA's response?
    Mr. Bahamonde. No, no one has talked to me about it.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Mr. Bahamonde, I want to go back to something we discussed 
earlier, which is when FEMA officials, and Michael Brown in 
particular, learned of your reports that the 17th Street Canal 
levee had broken Monday morning, you said you discussed the 11 
a.m. report you overheard in the city Emergency Operations 
Center with Mr. Brown's special assistant Mike Heath. Is that 
right?
    Mr. Bahamonde. That is correct.
    Senator Lieberman. But you also said you don't know whether 
Mike Heath passed that information on to Michael Brown, right?
    Mr. Bahamonde. Correct.
    Senator Lieberman. Just to make the record complete, I want 
to share with you--and I know the clerk has just given it to 
you--an E-mail chain that we received just last night from 
FEMA. And I apologize to you and the other Members of the 
Committee that this did not make it into the exhibit book. But 
I think it is important to raise and include in the record 
now.\1\
---------------------------------------------------------------------------
    \1\ Exhibit submitted by Senator Lieberman appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    In this chain, as you will see in the document I have given 
you, which is a copy of a chain, it is an 11:51 a.m. E-mail on 
Monday, August 29, from Mike Heath to someone named Michael 
Lowder. Who is Michael Lowder? Do you know the name?
    Mr. Bahamonde. I believe he is the Deputy Director of 
Operations? Is that correct?
    He is one of the senior leaders in the response operation.
    Senator Lieberman. OK, within FEMA.
    Mr. Bahamonde. Correct.
    Senator Lieberman. This E-mail says, ``From Marty.''--you--
``He has been trying to reach Lokey.''--who I know is another 
FEMA official who was in Baton Rouge at the time. ``New Orleans 
FD''--I presume ``Fire Department''--``is reporting a 20 foot 
wide breech [sic] on the [L]ake [P]onchartrain [sic] side levy 
[sic]. The area is [L]akeshore Blvd and 17th Street.''
    Then at 11:57 a.m., again, still Monday morning, Mr. Lowder 
forwarded this on to Michael Brown with a note that says, ``Not 
sure if you have this.''
    At 12:08 on that Monday morning, Mr. Brown replied, ``I'm 
being told here water over not a breach''--in other words, that 
the water has gone over the levee but the levee hasn't been 
breached or broken.
    To which Mr. Lowder quickly replied, ``Ok. You probably 
have better info there. Just wanted to pass you what we hear.''
    Now, I am not sure if you want to comment on that, but I 
did want to let you know that your message actually did make it 
to Mr. Brown within a relatively short time after you overheard 
the comment.
    Mr. Bahamonde. Good to see.
    Senator Lieberman. OK. Just to add a few things that make 
this so troubling, so puzzling. We know that you previously 
testified to the evening direct conversation with Michael 
Brown, telling him what you had seen by that time after you had 
gone up in the Coast Guard helicopter, levee is breached--
levees are breached, 80 percent of New Orleans underwater. 
Senator Levin earlier quoted from the MSNBC 9 p.m. interview 
with Michael Brown that night, Monday, August 29. ``Just 
beginning to receive reports from my folks in the field of 
literally tens of square miles of homes inundated with water up 
to the roofs.''
    Incidentally, I presume anybody following this hearing 
appreciates this fact, but I want to just go back and restate 
it. You are not just somebody who coincidentally was dropped 
into New Orleans. Mr. Brown clearly trusted you. He dispatched 
you based on experiences that you had together. And he goes on 
national television--and unless he heard it from somebody else, 
but I don't believe there was anybody else he could have heard 
it from--he immediately repeats what you told him about the 
flooded conditions. And then Mr. Brown said, ``I have already 
told the President tonight that we can anticipate a housing 
need of at least in the tens of thousands.''
    Secretary Chertoff yesterday appears before the House 
committee, and he says, ``When I learned on Tuesday morning 
that the challenge had been compounded because there had been 
an irreparable levee breach or a series of levee breaches,'' it 
is just amazing to me that after all that you had done during 
all of Monday in a critical situation where the water is 
literally rising, somehow the word does not reach Mr. Chertoff 
until Tuesday morning. And then he says, ``At that point I 
recognized''--he said this yesterday in the House committee--
``that we needed to be--perhaps be somewhat more--have somewhat 
more intense focus in terms of what was being done in the field 
that might have been done in the case of a normal hurricane.''
    He also said yesterday--and, of course, we are going to 
want to ask him this--that he was trying unsuccessfully to 
reach Michael Brown all day Tuesday, didn't reach him until 
Tuesday at 8 p.m., which is a puzzle because you obviously 
reached him by phone--Mr. Brown--and you were E-mailing 
directly during the day.
    The other troubling part--maybe it was a misstatement, I 
don't know--September 2, the following Friday, it would have 
been, President Bush is in Biloxi, Mississippi, after his first 
visit to the Gulf Coast, and he says, ``The levees broke on 
Tuesday in New Orleans''--not on Monday, as we know they did. 
It has worked its way up.
    This has unsettling echoes in a very different context of 
the September 11 tragedy in the sense that information was in 
different places, in this case particularly prior to the 
attack, and it wasn't reaching the key decisionmakers in a 
coordinated way for them to take action and prevent it.
    Maybe the other metaphor, which is a painful one, is that 
as we now know, the first responders in the World Trade Center 
couldn't communicate with each other because of the inability 
of their systems to do so, and it looks in a very different 
context like a repeat of that.
    I want to ask you a question similar to the one that 
Senator Collins did, but in a slightly different way. You have 
already testified that you felt, based on what you saw at the 
Superdome, beginning Sunday, in which you were telling your 
superiors that they should have sent several medical teams to 
deal with it and emergency response teams. What in your mind, 
as you first heard on Monday morning, August 29, that the 
levees had been broken, and as the day went on saw that the 
city was 80 percent flooded, what in conveying that up did you 
hope would happen in response?
    Mr. Bahamonde. That they would bring everything that the 
Federal Government had at its disposal to help those people.
    Senator Lieberman. Amen. Thank you very much for your 
testimony today. You have really built a factual basis here 
from firsthand eyewitness experience about what was happening, 
what you tried to do, and we have to continue to follow this 
trail where the facts take us to figure out why it was not done 
and what is being done to make sure that nothing like this 
happens again. So you really deserve a medal for what you did 
then and your willingness to come forward and talk today, and I 
thank you very much for both.
    Mr. Bahamonde. Thank you for the opportunity.
    Chairman Collins. Mr. Bahamonde, usually I do a closing 
statement, but there is an E-mail that you sent, which is 
Exhibit 22,\1\ which to me sums up why we are having this 
investigation, the stakes, and why this matters so much. And so 
instead of my making a closing statement today, I would like to 
ask you to read the E-mail that is Exhibit 22.
---------------------------------------------------------------------------
    \1\ Exhibit No. 22 appears in the Appendix on page 00.
---------------------------------------------------------------------------
    Mr. Bahamonde. I wrote this E-mail to Cindy Taylor on 
Saturday, September 3, at 1 o'clock in the morning, and I said, 
``The State told us''--it was in reference to planes who were 
no longer able to fly evacuees out because there were such 
delays that the pilots needed rest, and she ended her E-mail by 
saying, ``I'm bitter, I'm frustrated, I'm angry.'' And I wrote 
her back, and I said, ``The State told us we would run out of 
places. The Army told us they had run out of places. The 
leadership from top down in our agency is unprepared and out of 
touch. When told that the Superdome had been evacuated and 
would be locked, Scott Wells said, `We shouldn't lock it 
because people might still need it in an emergency.' Myself and 
the general who had been there immediately spoke up and told 
Scott that it was impossible to send anyone back in there. Is 
that not out of touch? But while I am horrified at some of the 
cluelessness and self-concern that persists, I try to focus on 
those that have put their lives on hold to help people that 
they have never met and never will. And while I sometimes think 
that I can't work in this arena, I can't get out of my head the 
visions of children and babies I saw sitting there helpless, 
looking at me and hoping I could make a difference. And so I 
will and you must, too. It is not what we do that is as 
important as who we are, and that's what those little kids' 
faces were counting on.''
    Chairman Collins. I thank you so much for your testimony 
today and for your courage in coming forward to tell your 
story.
    This hearing record will remain open for 15 days, and this 
hearing is now adjourned.
    Mr. Bahamonde. Thank you.
    Chairman Collins. Thank you.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4442.001

[GRAPHIC] [TIFF OMITTED] T4442.002

[GRAPHIC] [TIFF OMITTED] T4442.003

[GRAPHIC] [TIFF OMITTED] T4442.004

[GRAPHIC] [TIFF OMITTED] T4442.005

[GRAPHIC] [TIFF OMITTED] T4442.006

[GRAPHIC] [TIFF OMITTED] T4442.007

[GRAPHIC] [TIFF OMITTED] T4442.008

[GRAPHIC] [TIFF OMITTED] T4442.009

[GRAPHIC] [TIFF OMITTED] T4442.010

[GRAPHIC] [TIFF OMITTED] T4442.011

[GRAPHIC] [TIFF OMITTED] T4442.012

[GRAPHIC] [TIFF OMITTED] T4442.013

[GRAPHIC] [TIFF OMITTED] T4442.014

[GRAPHIC] [TIFF OMITTED] T4442.015

[GRAPHIC] [TIFF OMITTED] T4442.016

[GRAPHIC] [TIFF OMITTED] T4442.017

[GRAPHIC] [TIFF OMITTED] T4442.018

[GRAPHIC] [TIFF OMITTED] T4442.019

                                 <all>

</pre></body></html>
